<html>
<title> - THE VALUE OF EDUCATION CHOICES FOR LOW-INCOME FAMILIES: REAUTHORIZING THE D.C. OPPORTUNITY SCHOLARSHIP PROGRAM</title>
<body><pre>[Senate Hearing 114-525]
[From the U.S. Government Publishing Office]









                                                        S. Hrg. 114-525

                   THE VALUE OF EDUCATION CHOICES FOR
  LOW	INCOME FAMILIES: REAUTHORIZING THE D.C. OPPORTUNITY SCHOLARSHIP 
                                PROGRAM

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             FIRST SESSION

                               __________

                            NOVEMBER 4, 2015

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                       U.S. GOVERNMENT PUBLISHING OFFICE 

22-473 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          








        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
  
                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
                       Courtney J. Allen, Counsel
       Patrick J. Bailey, Chief Counsel for Governmental Affairs
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
    Michael Santora, Legislative Assistant, Office of Senator Carper
                     Laura W. Kilbride, Chief Clerk
                   Benjamin C. Grazda, Hearing Clerk
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Carper...............................................     3
    Senator Booker...............................................    27
    Senator Heitkamp.............................................    30
Prepared statements:
    Senator Johnson..............................................    43
    Senator Carper...............................................    45

                                WITNESS
                      Wednesday, November 4, 2015

Hon. Dianne Feinstein, a U.S. Senator from the State of 
  California.....................................................     5
Hon. Tim Scott, a U.S. Senator from the State of South Carolina..     6
Hon. Eleanor Holmes Norton, a Representative in Congress from the 
  District of Columbia...........................................     8
Hon. Kevin P. Chavous, Chairman, Serving Our Children, 
  Washington, D.C................................................    12
Mary Elizabeth Blaufuss, President and Chief Executive Officer, 
  Archbishop Carroll High School, Washington, D.C................    15
Gary Jones, Parent, D.C. Opportunity Scholarship Program, 
  Washington, D.C................................................    17
Linda Cruz Catalan, Student, The Field School, Washington, D.C...    19
Christopher A. Lubienski, Ph.D., Professor, Education Policy, 
  Organization and Leadership, University of Illinois, Champaign, 
  Illinois.......................................................    20

                     Alphabetical List of Witnesses

Blaufuss, Mary Elizabeth:
    Testimony....................................................    15
    Prepared statement...........................................    53
Chavous, Hon. Kevin P.:
    Testimony....................................................    12
    Prepared statement...........................................    49
Cruz Catalan, Linda:
    Testimony....................................................    19
    Prepared statement...........................................    62
Feinstein, Hon. Dianne:
    Testimony....................................................     5
Holmes Norton, Hon. Eleanor:
    Testimony....................................................     8
    Prepared statement...........................................    47
Jones, Gary:
    Testimony....................................................    17
    Prepared statement...........................................    60
Lubienski, Christopher A.:
    Testimony....................................................    20
    Prepared statement...........................................    64
Scott, Hon. Tim:
    Testimony....................................................     6

                                APPENDIX

Statements submitted for the Record from:
    American Association of University Women.....................    75
    American Civil Liberties Union...............................    77
    Baptist Joint Committee......................................    80
    Council of Parent Attorneys and Advocates, Inc...............    81
    Government Accountability Office.............................    82
    National Coalition for Public Education......................    93
    Union of Orthodox Jewish Congregations of America............    97
    Secular Coalition for America................................    98
    Dr. Patrick Wolf, Distinguished Professor of Education 
      Policy, University of Arkansas.............................   101
Responses to post-hearing questions for the Record from:
    Mr. Chavous..................................................   115
    Ms. Blaufuss.................................................   121
    Mr. Lubienski................................................   123
 
                   THE VALUE OF EDUCATION CHOICES FOR
                   LOW-INCOME FAMILIES: REAUTHORIZING
                THE D.C. OPPORTUNITY SCHOLARSHIP PROGRAM

                              ----------                              


                      WEDNESDAY, NOVEMBER 4, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Sasse, Carper, Heitkamp, and 
Booker.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing will come to 
order.
    I want to welcome everybody here. We have a distinguished 
first panel. I certainly want to welcome the students and 
teachers and administrators from Cornerstone Academy, Calvary 
Christian Academy, and Archbishop Carroll High School. All of 
these schools participate in the D.C. Opportunity Scholarship 
Program (OSP). So, we really do appreciate having a full 
hearing room, and I am really looking forward to the testimony.
    I would ask unanimous consent to have my formal opening 
statement included in the record\1\ and I just want to keep my 
opening comments relatively short, but also just off the top of 
my head.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 43
---------------------------------------------------------------------------
    I became involved and a strong supporter of school choice 
many years before I ran for the U.S. Senate. I got involved in 
the local school system. As a Missouri Synod Lutheran, we sent 
our kids to a Catholic school system in Oshkosh, Wisconsin, 
which struggled. It is very difficult for private schools to 
survive when the parents are obviously paying property taxes. 
We all want to do that to support public schools. But then have 
to also pay private tuition for the schools.
    I come from the private sector. I ran a plastics 
manufacturing business for 31 years. I would have loved to have 
been a monopoly. I did not really like competition. But because 
of free market competition, my prices were lower, my quality 
was higher, as was my customer service. That is what free 
market competition does. It guarantees the lowest possible 
price and cost, the best possible quality, the best possible 
level of customer service.
    Gee, would it not be great to have that kind of discipline 
in our school system for our children, for their opportunities? 
So, I am just naturally inclined to support competition and 
opportunities, because this is all about providing our children 
with the tools they need to become productive citizens. It is 
about opportunity. It is about giving people a choice. It is 
about giving people a chance.
    I want to just quickly run through some numbers. 
Fortunately, in the State of Wisconsin, we were some real 
trailblazers here. With the efforts of people like Polly 
Williams and other courageous people in Wisconsin, we have had 
a school choice program offering for quite a few years. To 
date, more than 290,000 students in Wisconsin have been able to 
participate in that type of opportunity. On an annual basis, it 
is about 30,000 out of a total enrollment in Wisconsin of about 
863,000, but it is primarily in Milwaukee, where we have 
enrollment of 77,000 students. Twenty-five thousand are taking 
advantage of the Opportunity Scholarships in Wisconsin. In 
D.C., it is about 85,000 children enrolled in K through 12. 
Only 1,400 have that possibility.
    As a business person, as an accountant, one of the things I 
just have to take a look at is I have to take a look at costs. 
In Milwaukee--in Wisconsin, it costs, on average, about $12,000 
per year to educate a child. Now, again, as a business person, 
if I take $12,000, let us say times 20 students, that is 
$240,000. I think if you give me 20 students and $240,000, I 
would do a pretty good job of educating those 20 kids. Now, I 
realize it is more complex than that and there are some real 
challenges.
    In the District of Columbia, it costs about $28,000 per 
student. That includes building costs. If you pull the building 
costs out of that, it is close to $20,000. Now, do the math on 
that. Twenty-thousand or $28,000 times 20 is somewhere between 
$400,000 to $569,000 per 20 pupils. A lot of times, we do not 
really kind of put it in those terms, but literally $400,000 to 
over $500,000 per 20 students, a classroom. Again, you give me 
$400,000 to $550,000 to educate 20 kids, I would do a pretty 
good job.
    Now, it is also a fact that these Opportunity Scholarships 
cost dramatically less than that. In the District of Columbia, 
depending on which figure you are looking at, it is somewhere 
between 44 percent of the full cost or 63 percent of the just 
spending on students--44 to 63 percent. And you could make a 
strong case for Opportunity Scholarships just on the basis of 
saving the school district money.
    So, you put the numbers, you put all those things aside, 
the bottom line is this is about providing opportunity to our 
children so that they can, again, obtain the tools to lead a 
successful life. Opportunity should not be determined by 
winning a lottery.
    Anybody who has seen the movie, ``Waiting for Superman,'' 
and it is a hard movie to watch, as we see some kids winning 
the 
lottery, getting a shot at a productive life, and other 
children losing--it should not be like that, not here in 
America, not in the District of Columbia.
    So, again, I just really want to commend Senator Feinstein 
and Senator Scott and other people that have really worked hard 
on this issue for many years, to provide that opportunity to 
our children.
    And with that, I will turn it over to Senator Tom Carper 
for his opening statement.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman. Thanks for holding 
the hearing today, and to our witnesses, three of my favorite 
people are lined up here before us, Senator Feinstein, Senator 
Scott, Congresswoman Eleanor Holmes Norton. It is great to see 
you, Eleanor. Thank you so much for coming over here to join 
us.
    Before I came to work here with all of you, I had the 
privilege of being a Governor in my State. For 8 years, we 
focused on raising student achievement, thought it was the most 
important thing that we did. We focused on--it was part of the 
idea of how do we, one, strengthen the basic building block of 
our society, our families, and we thought that was pretty 
important, education. The other thing is we are always focused 
on how to provide a nurturing environment for job creation and 
job preservation, and if you do not have a world class 
workforce, kids coming out of our high schools who can read, 
who can write, who can think, who can do math, who are good 
with science and technology, then you have a problem in this 
day and age. So, we focused on all of that.
    We measured our progress, or lack of progress, and 
recently, a couple of years ago, I think, Stanford and Harvard 
actually did a study of all 50 States. They looked at academic 
progress from 1993, the year I became Governor, through 2003, 
and they found that some States did pretty well in terms of 
academic progress. Delaware is No. 3 out of 50 in terms of our 
progress. So, we had a long ways to go to start with. We 
started in a hole and we made progress.
    We still struggle. I will be real honest with you. We still 
struggle to try to make sure that every kid has a chance to 
learn and does learn and goes on to graduate. I am pleased with 
our graduation rates in our State. I think we are up, way up, 
from where we were just a couple of years ago, but there is 
still more work to be done.
    The important thing for us in Delaware is to find out what 
works, and I think the best predictor of kids doing well in 
school is the expectation and the involvement of their parents. 
If you have a kid who is being raised by someone who does not 
care about their education, not involved with their child's 
education, or their grandchild's education, or the niece or 
nephew's education, do not be surprised when great things do 
not happen. If you do not have teachers, if you do not have 
great school leadership, do not be surprised if wonderful 
things do not happen in those schools, because those are 
incredibly important, as well.
    This is a program that would not exist but for, I think, 
John Boehner, Speaker Boehner, a good friend of mine, I suspect 
of all of ours. For him, this is real important. This is a big 
legacy for him. We all have legacy issues that we have worked 
on. Senator Feinstein and us and our Committee have worked real 
hard of late on information sharing/cybersecurity legislation, 
and that is going to be part of your legacy and, hopefully, 
part of ours and help us strengthen our economic recovery in 
this country and do other good things, as well. But, this is 
important to John Boehner. And, that is not why I think we 
should support the program, but I think it means we have an 
obligation to make sure that it is as good as it can be.
    There are critics of this program. I am not going to spend 
the time going through the criticisms of the program. But, it 
is important that we have good metrics for the program, we find 
out what is working and what is not, and the stuff, the areas 
where it is not working, let us do something about it. There 
are some schools where this program helps to fund that I do not 
think any of 
us--look, I would say, why would we do that with Federal money? 
So, let us just be open minded about this.
    I will close with this thought. Among the other Committees 
I serve on with Senator Scott is the Finance Committee, and 
about 2 years ago, we had a hearing on deficit reduction and 
had some really smart people there to talk to us about deficit 
reduction to our Finance Committee. One of the guys was Alan 
Blinder. Alan Blinder now teaches economics at Princeton. He 
used to be Vice Chairman of the Federal Reserve when Alan 
Greenspan was our Chairman of the Federal Reserve.
    So, Alan Blinder was testifying before us and he said on 
deficit reduction, the 800-pound gorilla in the room on deficit 
reduction is reducing health care costs, getting better costs 
and reducing health care costs at the same time, and he was 
right. When it came time for us to ask questions of our 
witnesses that day, I asked him, I said, Dr. Blinder, you said 
the 800-pound gorilla in the room on deficit reduction is 
health care costs. If we do not get our arms around it, we are 
doomed. And, he said, ``That is right.'' I said, just tell us, 
if you were in our shoes, what would you do about it? And he 
sat there, and he sat there, and finally he said, ``Find out 
what works, do more of that.'' That is all he said. ``Find out 
what works and do more of that.''
    In Delaware, we did not go to the kind of system we have in 
this program that we are talking about here, but we did go to 
charter schools, public charter schools. Next October, or next 
September when schools convene in Wilmington, Delaware, half of 
the kids in Wilmington, Delaware, public schools, will be going 
to a charter school. If they do not work, we close them. If 
they do work, we try and replicate them and figure out what we 
can do.
    We have public school choice in Delaware. You can choose to 
move from school to school within your district. You can even 
go outside your district. The money follows the kid, to foster 
competition, the kind of competition that our Chairman was 
talking about.
    So, could competition help us? Sure, it can. But it is 
important that whether it is a charter school or traditional 
public school or a voucher program like this one, we have to be 
using good metrics and always looking for how do we make this 
better. How do we make sure that we are getting our money's 
worth for our taxpayers and doing what is fair for the kids and 
their families.
    With that, I will ask my real statement be made part of the 
record and we will move on.\1\ Thank you all for joining us.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Carper appears in the 
Appendix on page 45.
---------------------------------------------------------------------------
    Chairman Johnson. Senator Carper did mention the 
cybersecurity bill. This is another example of what can be 
accomplished when you concentrate on the areas of agreement 
that unite us, that unify us, as opposed to exploit our 
differences.
    So, again, I want to welcome our distinguished panel. We 
have Senator Dianne Feinstein, the senior Senator from the 
State of California; Senator Tim Scott, the junior Senator from 
the State of South Carolina; and Delegate Eleanor Holmes 
Norton, Delegate to the U.S. Congress representing the District 
of Columbia.
    We will start with Senator Feinstein, and we realize you 
are going to have to leave after your testimony, but we really 
do appreciate you taking time. Senator Feinstein.

 TESTIMONY OF THE HONORABLE DIANNE FEINSTEIN, A UNITED STATES 
              SENATOR FROM THE STATE OF CALIFORNIA

    Senator Feinstein. Thanks. Thanks very much, Mr. Chairman, 
and thank you, Senator Carper, for your comments. Senator 
Sasse, great to have you here. I also want to thank Senator 
Scott and Senator Booker for their support of this program. And 
it is great to see Eleanor Holmes Norton, a woman I greatly 
admire, and I welcome her to the lesser side of the Congress. 
[Laughter.]
    My history with this program goes back to 2003. As an 
appropriator, the first appropriation was thought to be a tie 
vote. I received a visit from Mayor Williams, and he made a 
pitch to me for the program and I voted for the program, and it 
was a tie vote and I broke that tie. So, I have taken great 
interest in the program since then and watched it and hope to 
see it continue to mature.
    I really believe that we have to, as you said, Senator, 
have competition in the system. I come from a big State. I have 
watched public education for 50 years carefully. I have seen 
California go from one of the best to way down the list. And, 
so, competition and charter schools and parochial and private 
schools all have a role to play.
    The question comes, ``Should somebody that does not have 
the money for a parochial or private school be denied that 
opportunity?,'' and that is where this scholarship opportunity 
program comes in, because it clearly says, ``No.'' We believe 
in competition. We want to open the door to competition and an 
amount will be provided to make this opportunity real.
    So, this program provides low-income students with up to 
$8,381 to attend elementary school and middle school, and up to 
$12,572 to attend high school. So, it is consequential. It may 
not do the whole job, but for a family that needs help, it 
gives that family the leg up.
    Students have to meet only two requirements to apply for a 
scholarship. Their families must be low-income and have lived 
in the District for at least 5 years, and the scholarships can 
be used for tuition, for uniforms, for books, and public 
transportation.
    I personally have an example in the District of someone who 
did very well in this program. Very early on in her life, she 
had a troubled public school education. I got to know her as a 
3-year-old. I had the privilege of helping her go to a Catholic 
school both in middle school and also in high school. She got 
into Stanford University and this past fall she got her 
Master's degree. So, alternative styles and venues of education 
can be helpful, and somehow, we have to open our hearts and our 
pocketbooks to this.
    I believe so strongly that I have sent my staff out to some 
36 of the 47 schools in the program. My staff made visits, 
talked with parents and administrators about how the program 
could be improved, and reported on what they saw. There were a 
number of schools, 12 out of the 47, that did not have 
accreditation, and I believe very strongly they should have 
accreditation. I think this is the next step to really improve 
education in this venue.
    And, I am very pleased that in both the Senate and the 
House bill, there is a portion that accredits the schools, in 
other words, says they must be accredited within a certain 
period of time, and I think that is an important improvement 
and benefit.
    But, I guess what I want to say is that I feel very 
committed to this pathway. I have supported the Knowledge is 
Power Program (KIPP) schools, other charter schools. I have 
seen them make a difference in low-income neighborhoods in 
California. And, I really believe that where education has to 
provide this equal opportunity is to low-income families. If 
they want to have a choice, we ought to make it possible for 
them to have that choice. So, I am a locked and loaded 
supporter of alternative education.
    I just wanted to thank this Committee for your efforts and 
support. I think it is a model, and I think it can be 
developed, it can be improved. I spoke with former Mayor 
Williams about this at a dinner held not long ago, and I gather 
there is a new leadership group that is going to play a major 
role in school development in this particular venue.
    So, thank you. I am very happy to be a strong supporter of 
the program.
    Chairman Johnson. Again, thank you, Senator Feinstein, for 
your support, and you certainly have our commitment to work 
with you, with your leadership on this issue. Senator Scott.

 TESTIMONY OF THE HONORABLE TIM SCOTT, A UNITED STATES SENATOR 
                FROM THE STATE OF SOUTH CAROLINA

    Senator Scott. Thank you, Mr. Chairman, thank you, Ranking 
Member Carper, and to all the other members of the Committee.
    Senator Feinstein, it is certainly good to find an issue 
that we can work together on, and this is a very important 
issue for our Nation.
    And, frankly, when you think about the issue of choice, you 
think about a way for us to combat poverty, to grow our 
economy, and to really unleash the potential of so many kids 
around this country and, frankly, dozens upon dozens of kids 
right behind us who are desperately looking for opportunities 
to show what they are made of, to give us real examples of the 
power of opportunity is to look at their success of the kids 
behind us, and, frankly, to their parents. To me, the issue of 
school choice is an issue that brings to light an opportunity 
for them to see their kids reach their full potential, and in 
my opinion, that is a very important consideration.
    Too often, we hear conversations about Democrats and 
Republicans, of blue versus red, and the fact of the matter is 
the issue of school choice is not a partisan issue at all. It 
is not an issue about Republicans or Democrats. It is and 
should remain an issue about children. And, we see the success 
of the school choice program, the Opportunity Scholarship 
Program (OSP), all across the city of D.C.
    And, I will tell you, as I thought through my comments for 
this important hearing that Proverbs 22:6 came to mind, 
training up a child in the way that he or she should go, so 
that they can maximize their potential. And, to me, the 
foundation of education is a key component in harnessing that 
potential.
    So many of these journeys start on rough roads, in little 
houses, trailers, small apartments, journeys that are very much 
like my own journey, living in a single-parent household in 
real poverty in North Charleston, going to four different 
elementary schools by the time I was in the third or fourth 
grade. The reality of it is that school choice is an 
opportunity to make sure that kids who grow up in the wrong zip 
codes experience the best of life and not simply the 
underperforming schools that may be in their districts.
    I want to say this, and I want to make sure that I am clear 
about it. I appreciate, love, and have great affection for 
public schools. I am a product of public schools. As a matter 
of fact, if you have a good public school, that is a great 
thing. But, if you do not have a good public school, we should 
make sure that the options are available for the students and 
for their parents. That means every child everywhere in this 
Nation should be afforded the opportunity to maximize their 
potential through school choice.
    And, Chairman Johnson, as you said at the beginning, your 
commitment to this issue started before you were a United 
States Senator. Ron, you were making investments in Milwaukee 
and throughout Wisconsin with your own resources because you 
understand and appreciate the power of education. That is an 
issue that I learned a little later in life, as a kid whose 
parents divorced when I was seven, growing up in a single-
parent household. I started drifting in the wrong direction. I 
learned very quickly, Senator Sasse, that all drifting seems to 
head in the wrong direction. [Laughter.]
    Senator Carper. Was there some reason why you directed 
those comments to him?
    Senator Scott. It was his profound maiden speech.
    Senator Carper. He gave a great maiden speech yesterday.
    Senator Scott. Indeed. And, since my time is running out, 
and Senators, we cannot tell time, so I had better hurry up 
here, but the truth of the matter is, by the time I was a 
freshman in high school, I was failing out. I failed world 
geography. I thought I was the only Senator to ever fail 
civics, and then I joined you guys and realized that perhaps 
some of you did not do so well, either. [Laughter.]
    You can say that to your own people. So, anyway, I failed 
Spanish and English, as well. When you fail Spanish and you 
fail English, they do not consider you bilingual. They call you 
bi-ignorant, because you cannot speak any language, and that is 
where I found my unhappy self.
    But, I had the privilege and the blessing of a strong, 
powerful mother who believed in education. She became so 
invested in education for the next 3 years, I caught up, went 
on to Charleston Southern University--``Go Bucks''--and 
graduated with a degree in political science.
    I will tell you this, that when I think about where these 
kids are, here is what I think. I think that we are looking at 
those kids that attend the OSP program have a graduation rate 
of over 90 percent. Those kids in the district that do not go 
to OSP schools have a graduation rate just above 50 percent. We 
are spending a little more than $20,000 per student to make 
sure that we have a 55, 56 percent graduation rate, but we 
spend about 40 cents on the dollar and we see a 90-plus 
graduation rate with parental satisfaction over 90 percent. And 
last year alone, 98 percent of OSP students went on to earn a 
two-or 4-year degree.
    Senators, without much of a question, the divide in our 
Nation between the haves and have-nots can be easily defined by 
family formation--which I am not sure how we control that--and 
education. We do have the opportunity to control that.
    I know my time is running short, so let me just close by 
saying that when you think about why these statistics and why 
these numbers are so important, let me just translate it. Half 
of African-American males do not finish high school in 4 years. 
Too many do not finish at all. And for students who do not 
finish high school, their income, on average, is $19,000. For 
those students who finish high school, their income is 50 
percent higher. For those who go on and finish college, it is 
almost three times higher.
    We do this, by the way, scholarship programs, public 
dollars going to private schools, we do this every single day 
of the year in America. We call those Pell Grants. I took my 
Pell Grant to a small Christian school, Charleston Southern, 
and I will tell you that the unfortunate reality is simply 
this, that if you do not graduate from high school, you do not 
use a Pell Grant. And in my opinion, this is not about the 
numbers, though the numbers are very important. The cost of 
school is very important. This is about human potential.
    Let us not be confused about what we are talking about. We 
are not talking about 20,000 versus 8,500. We are talking about 
making sure that the kids behind me have the same opportunities 
that each and every one of us who serve in this amazing body 
has. It is our opportunity, our responsibility to stand up and 
be counted for these kids that will lead us 1 day. And Lord 
knows, as we look at the entitlement State of America, we are 
going to need them to be taxpayers. God bless you.
    Chairman Johnson. Thank you, Senator Scott. Delegate Holmes 
Norton.

TESTIMONY OF THE HONORABLE ELEANOR HOLMES NORTON,\1\ A DELEGATE 
           IN CONGRESS FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Chairman Johnson, Ranking Member Carper, I very 
much appreciate the opportunity to testify here this morning as 
the Member of Congress who is privileged to represent the 
residents of the District of Columbia. I regret we have no 
representation in this body, but I certainly appreciate your 
attention to our issues.
---------------------------------------------------------------------------
    \1\ The prepared statement of Delegate Norton appears in the 
Appendix on page 47.
---------------------------------------------------------------------------
    Chairman Johnson, I want to begin by thanking you for your 
bill to make improvements in the District of Columbia criminal 
justice agencies. Your support of that bill here in the Senate 
is an important reason why it is on its way to passage in the 
House.
    Now, I recognize that the bill before you providing 
vouchers for some of our students--and I am very pleased to see 
that among those who have come this morning are some of our 
students who will see how the Congress operates--I recognize 
that this bill may pass, so from the beginning, I have wanted 
to work with my colleagues as the bill moves forward, if it 
does, in support of this program that is $182 million to ensure 
that the youngsters who receive the vouchers indeed get a high-
quality education. That was the point of the vouchers in the 
first place.
    I think I should first explain my own position. I have long 
supported allowing the current students in the program to 
remain until they graduate from high school. That is also the 
position that the President has taken. I regarded that as a 
reasonable compromise, even in a Congress which does not 
compromise on almost anything any more. But, I thought this was 
a reasonable compromise, considering that the District of 
Columbia is one of the few jurisdictions in the United States 
that has built significant alternatives for its traditional 
public school system.
    I oppose this program because it has failed to improve 
academic achievements, including the students who it was most 
designed to benefit, those from the lowest-performing public 
schools. Now, during the more than 10 years this program has 
been in effect, the same tests show the District of Columbia 
public school's children have improved. The same tests show 
that District of Columbia charter school test scores have 
improved. But these voucher tests do not show similar 
improvement, though that was the reason that the Congress said 
that the District must accept this program.
    This program violates the District's right to self-
government. The District was not even consulted about this 
program, so might have had a better idea. This program deprives 
students of their Federal civil rights protections. And, most 
of all, it is unnecessary in our city, which, unlike most 
jurisdictions, has seen a growth of public charter schools. You 
will not find in most jurisdictions, as you do in the District 
of Columbia, 44 percent of our children going to public 
accountable charter schools. You will not find in most of these 
districts that 75 percent of the students go to out-of-boundary 
schools, schools of their choice.
    I am proud of our public charter schools. When former 
Speaker Newt Gingrich approached me and said he wanted private 
school vouchers in the District of Columbia, and I was in the 
minority, as I have for most of my time in the Congress, I 
asked him, since the District had a fledgling charter school 
system, only one or two charter schools, but at least it had 
shown a home rule self-government interest in an alternative to 
its public schools, I asked him to work with me on charter 
schools, and that is how we got our charter school board, and 
that is why 44 percent of our children attend charter schools, 
and that is why our charter schools have long waiting lists, 
even though the voucher schools do not have similar waiting 
list.
    Do you want to know what made our schools better? I believe 
in competition, Senator Johnson. It was the competition from 
these very good charter schools, often very near our public 
schools. And that is what, that is the competition that has 
made them into better schools today.
    The Government Accountability Office (GAO) has found that 
this program in the bill before you lacks quality controls and 
transparency. I very much appreciate that the bill attempts to 
improve the program by requiring students, at the very least, 
to go to accredited schools. But I have to ask you, how could 
this Congress have allowed these students to go to unaccredited 
schools for now more than 10 years, simply because a voucher 
schools sprang up in their neighborhood? Of course, 
accreditation is a relatively low bar.
    Now, there are a number of high-quality schools in this 
program, but Congress should not be funding schools that could 
not exist except for this program's virtually unconditional 
Federal funds. What I am referring to, we have called ``voucher 
mills,'' fly by-night schools that sprang up in some low-income 
neighborhoods only after Congress created this program.
    For example, the GAO found that voucher students comprised 
more than 80 percent of the school enrollment in six schools. 
The Washington Post did its own investigation entitled, 
``Quality Controls Lacking for D.C. Schools Accepting Federal 
Vouchers.'' Reporters spoke to officials of some of these 
schools. An example from one of them was, and I am quoting, 
``If this program were to end, this school would end.''
    The Senator spoke of competition. If a school has to rely 
primarily on Federal funds to exist, that is reason enough, it 
seems to me, that shows that market demand has not allowed that 
school to attract students, and if it cannot attract students 
on its own, then it should not attract Federal funds on its 
own.
    To accomplish the purpose of eliminating schools that 
should not be funded by Federal funds, because they do not have 
the quality, because they could not exist except for Federal 
funds, I have offered an amendment in the House to limit 
voucher students to 50 percent of a school's total enrollment, 
and that is a fairly liberal requirement. Although my amendment 
was not accepted, I appreciated that the majority indicated 
that they did support eliminating voucher mills. I do not know, 
perhaps there is a better way to do it than my 50 percent 
suggestion. I would be open, and I am certain you would, 
Senator, to any way to make sure that the quality that the 
vouchers were after is there in the schools that are available.
    I do believe that there is a burden on this Congress to 
ensure that the high-quality schools funded by this program, 
such as our accredited Catholic schools, do not have to compete 
for funds with voucher mill schools that would not exist except 
for these Federal funds.
    It is disappointing to me that although prior 
authorizations of this bill included evaluation to be done--and 
here I am quoting the congressional language--``conducted using 
the strongest possible research design.'' Thus far, the program 
has been evaluated using that design. That is how we evaluate 
the children of public schools and the public charter schools, 
and that is how we know whether they are, in fact, improving or 
not improving.
    In contrast, this bill requires the evaluation to be 
conducted using what it calls an acceptable quasi-experimental 
research design and expressly prohibits using random controlled 
trials. This, even though the researchers involved with this 
evaluation said, and I am quoting them now, that ``random 
controlled trials are especially important in the context of 
school schools, because families wanting to apply for choice 
programs may have educational goals and aspirations that differ 
from the average family.'' In other words, we should be 
comparing apples to apples and not to whatever oranges or other 
fruits happen to spring up in our study.
    I very much appreciate that there is an interest in the 
Congress in our children. Certainly with the help of Speaker 
Gingrich, we got what is now a flourishing charter school 
movement and charter schools that have been evaluated as the 
best charter schools in the country. We ask only to be treated 
as your constituents are treated, to be consulted on matters 
affecting us, and that is why I had decided that it was my 
obligation to come here this morning and to testify before you. 
And I very much appreciate the opportunity that you have given 
me.
    Chairman Johnson. We appreciate your testimony, and, I 
think, rest assured, we may have differences in terms of how 
the opportunity is provided, but it is a goal we all share. We 
want every American, every child, to have the opportunity to 
get a good education so they can build a good life for 
themselves, their families. So, again, we certainly appreciate 
your passion on this and we appreciate your testimony.
    And with that, we will----
    Senator Booker. Mr. Chairman, if I just may extend my 
thanks, as well, not only for her presence here, but the 
Congresswoman's office has been working with mine assiduously 
on improving this legislation. So, she is not just against it 
and not engaging. She is actually leaning in and trying to help 
correct what she sees as flaws in the current legislation. So, 
she has been tireless and she is working on behalf of a 
District, again, and I hate to editorialize, but it is, in my 
opinion, outrageous that they do not have more representation 
in this body.
    Chairman Johnson. No. And, again, we appreciate the search 
for those areas of agreement to improve. I come from a 
manufacturing background. I am into continuous improvements. 
So, again, we appreciate your testimony and your efforts.
    We will seat the next panel now.
    [Pause.]
    Chairman Johnson. Again, I want to welcome the witnesses. 
We were really privileged to have an overflow crowd here, so we 
invited some of the students and their teachers and 
administrators to come join us in the back of the panel here, 
which is a little unusual, but I kind of like it.
    It is the tradition of this Committee to swear in witnesses 
so if you all would stand up and raise your right hand.
    Do you swear or affirm that the testimony you will give 
before this Committee will be the truth, the whole truth, and 
nothing but the truth?
    Mr. Chavous. I do.
    Ms. Blaufuss. I do.
    Mr. Jones. I do.
    Ms. Catalan. I do.
    Mr. Lubienski. I do.
    Chairman Johnson. Please be seated.
    Our first witness is Kevin Chavous. He is a former member 
of the Council of the District of Columbia and Chair of the 
Council's Education Committee. Mr. Chavous is a founding board 
member and Executive Council for the American Federation for 
Children, the Chairman of Serving Our Children, Board Chair for 
Democrats for Education Reform, and former Board Chair for the 
Black Alliance for Educational Options. Mr. Chavous.

   TESTIMONY OF THE HONORABLE KEVIN P. CHAVOUS,\1\ CHAIRMAN, 
             SERVING OUR CHILDREN, WASHINGTON, D.C.

    Mr. Chavous. Thank you. Thank you, Chairman Johnson and 
Senator Carper and Members of the Committee, for this 
opportunity to testify on a subject that is near and dear to my 
heart, namely school choice generally and specifically here in 
the District of Columbia, the D.C. OSP.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Chavous appears in the Appendix 
on page 49.
---------------------------------------------------------------------------
    As you indicated, I served on the D.C. Council for 12 years 
and over half that time I was Chairman of the Education 
Committee, and from that perspective, I developed a keen 
awareness of the plight of many low-income students here in the 
Nation's capital. During my tenure on the Council, it became 
increasingly evident to me that many of the public schools 
serving our children in the most underserved communities were 
failing our students. These students needed options other than 
just the neighborhood public schools that may or may not be 
working.
    Here in the District, despite, as you have heard, having 
some of the highest per pupil expenditures compared to other 
States, our students are dropping out or performing abysmally 
on national assessment tests, and I first sought to promote 
school choice by advocating for charter schools. This is a 
movement that has thrived in the District, demonstrating a high 
demand for school choice among its residents.
    I do want to take this opportunity right now to point out 
that contrary to some of the claims of the critics and even my 
good friend, Delegate Norton, this program had high support in 
the District. Parenthetically, I just might add that I remember 
hearing from my father, he said, you always need to read 
because revisionist history is a dangerous thing. This program 
was not forced upon the city. Indeed, when Secretary Paige and 
President Bush approached Mayor Williams and I in 2003. They 
talked about a scholarship program.
    The city's involvement was clear and evident when it became 
a three-sector strategy. It was Mayor Williams' and I view that 
if we are going to have a Federal program and a Federal 
partnership, let us make it a true Federal partnership and let 
us lift all boats. And that is how we ended up having an equal 
amount of money at the time going to D.C. Public Schools, D.C. 
Public Charter Schools, and the scholarship program.
    And, frankly, over the last 10 years since the program has 
been in existence, all of the money that has come from the 
Federal Government to help this three-sector strategy take 
hold, $239 million have gone to D.C. Public Schools, the vast 
majority, compared to the other two programs. A hundred-and-
ninety-five million have gone to the charter schools, and $188 
million have gone to the scholarship. So, even with the advent 
of this program, not only has D.C. Public Schools been held 
harmless in terms of not having an impact on their budget, they 
have gotten far more money than the other two sectors, and 
that, again, shows that this was a true partnership.
    I might add that in addition to Mayor Williams and I, 
School Board President Peggy Cooper Cafritz, the President of 
the School Board at the time, was also supportive.
    I support public schools, and during my tenure as Chair of 
the Education Committee, we fought hard to make sure D.C. 
Public Schools got its fair share. But as a country, we need to 
make sure that our public schools live up to their promise. One 
of the reasons why we supported this program in the beginning 
was Congresswoman Norton referred to the charter schools that 
we had. Mayor Williams and I realized back in 2003 that we had 
thousands of children on the waiting lists for charter schools, 
and still many parents came to us wanting to have other 
options.
    I support the reforms that have taken place under Kaya 
Henderson's leadership and before that her predecessor, 
Michelle Rhee. Their commitment to public school reform and the 
public school reform movement is important and is noteworthy.
    But equal education should be a civil right for all 
students in America. A quality education is the on ramp to 
economic independence. It is the gateway to keeping at risk 
students away from drugs and out of prison. Regrettably, as 
Senator Scott said, equal education opportunity is not the norm 
today. Affluent families get access to the best education 
options, but too often, low-income students have very limited 
and often inadequate choices.
    Given these facts and statistics, it is puzzling to me how 
anyone can be against this program. Here is a program that has 
over a 91 percent graduation rate, over a 90 percent college 
going rate, it has produced thousands of opportunities for kids 
who otherwise would not have them at a time when D.C. Public 
Schools is still in the midst of its reform but still has not 
produced the same graduation rates and results as these schools 
have. What is there not to like?
    Mr. Chairman and Ranking Member of the Committee, let me 
just briefly, before I close, address a couple of concerns 
raised by the GAO report that was referred to earlier.
    As you indicated, I am the Chairman of Serving Our 
Children. We have board members that include a former parent of 
the program, Donald Hense runs the Friendship Schools, and also 
Mayor Williams. We are one month in as the new administrator of 
the program and it is our desire to make sure that we live up 
to the expectations placed on us to ensure that this program is 
administered effectively.
    There are several things that we will be doing. One is we 
received a significant private grant, much of which will go 
toward implementing major technology upgrades, and we are 
currently talking to companies and receiving those proposals. 
We intend to develop policies and procedures to ensure the 
financial viability and sustainability of the participating 
schools. There was some mention about transparency. We will 
make sure that we are transparent. We intend to enforce the 
policy of ensuring that any unaccredited schools become fully 
accredited within 5 years. We have been working closely with 
Senator Feinstein's office on that. We want to increase program 
participation and awareness. We intend to develop internal 
procedures to ensure that our administrative expenses are 
accurately tracked. All of these things were alluded to in the 
GAO report and we are working diligently and will continue to 
work diligently to improve them.
    In sum, a quality education is the foundation for achieving 
the American dream. Promoting equal education opportunity not 
only benefits disadvantaged children, but, frankly, it benefits 
all American. Equal education opportunity is the key to 
tackling the rampant socioeconomic problems that plague our 
inner cities. And to the extent that we can provide 
opportunities for at-risk youth, our entire Nation benefits 
from reduced crime, a far more productive workforce, and a more 
prosperous economy.
    In the past, in many speeches I have given around the 
country on this topic, I refer to Dr. Martin Luther King's 
message during the civil rights movement regarding the fierce 
urgency of now. People should not have to wait for their civil 
rights, he said at the time, and a quality education today 
should be a civil right, especially in a wealthy country like 
ours. A child should not have to wait three to 5 years for a 
school district reform plan to kick in. We could lose a child, 
or many children, and the dropout statistics suggest we are 
while we wait for the system to improve itself.
    For these reasons, we at Serving Our Children are dedicated 
to the concept that all children can achieve and excel if given 
the opportunity and the right environment. We hope that our 
efforts to ensure that all kids, regardless of geography, zip 
code, socioeconomic status, have an opportunity for quality 
education and a chance to thrive and achieve and reach their 
full potential. It is something that this Committee continues 
to share, and we appreciate your support in the past.
    Chairman Johnson. Thank you, Mr. Chavous.
    Our next witness is Beth Blaufuss. Ms. Blaufuss is the 
President of Archbishop Carroll High School in Washington, DC, 
where she previously served as the Vice Principal for Academic 
Affairs. Prior to her time at Archbishop Carroll, Ms. Blaufuss 
taught English at Bishop McNamara High School in Prince 
George's County as well as at Maplewood High School in 
Nashville, Tennessee, and the Sydney Grammar School in Sydney, 
Australia. Ms. Blaufuss received her Bachelor's degree from 
Yale College and her Master's in education from Vanderbilt 
University.
    And I just have to note that Ms. Blaufuss hosted Senator 
Carper and myself for a tour of your school and what we 
witnessed was a safe and nurturing environment for learning, 
and I really did appreciate the time that you and your students 
and your other administrators and teachers carved out for us to 
show us what I thought was a very wonderful school. Ms. 
Blaufuss.

 TESTIMONY OF MARY ELIZABETH BLAUFUSS,\1\ PRESIDENT AND CHIEF 
EXECUTIVE OFFICER, ARCHBISHOP CARROLL HIGH SCHOOL, WASHINGTON, 
                              D.C.

    Ms. Blaufuss. Thank you, Senator Johnson. It was a joy to 
have you.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Blaufuss appears in the Appendix 
on page 53.
---------------------------------------------------------------------------
    On behalf of the schools privileged to educate Opportunity 
Scholars, thank you. I have seen the impact of the Opportunity 
Scholarship firsthand. The most compelling reason to 
reauthorize it is that it works where it really counts.
    In the 2010 study, Opportunity Scholars were 21 percent 
more likely to graduate from high school than those in the 
control group who qualified for the scholarship but did not win 
the lottery for it. The same researchers called the program, 
quote, ``one of the most effective urban dropout prevention 
programs yet witnessed,'' end quote.
    Since the OSP began, Archbishop Carroll has graduated 221 
Opportunity Scholars. Data from the D.C. Children and Youth 
Investment Trust indicates that 88 percent of OSP graduates go 
on to college, compared to 49 percent of low-income students 
nationally.
    While we often tout the loudest those who go on to colleges 
with national reputations, like Dartmouth or Columbia, many of 
our OSP graduates of whom I am the most proud are those who 
come to us reading behind grade level but who still complete a 
rigorous college prep curriculum, or those like Mark, a student 
who admitted to me that he was not really even thinking about 
college as an option before he came to our school, or graduates 
who have endured periods of homelessness while they are in high 
school.
    The numbers and numerous anecdotes I could share tell the 
same story. The Opportunity Scholarship improves outcomes.
    When the program's researchers controlled for different 
sizes in the treatment and control groups and for clustering in 
specific schools, they did find statistically significant 
reading gains, equivalent to about 1 month of additional 
learning per year. The researchers also State that scoring high 
on tests is less important to a student's graduation prospects 
than academic habits and dispositions, such as self discipline, 
commitment, grit, and determination. OSP schools like Carroll 
foster those crucial dispositions.
    In 2013 and 2014, our school's SAT scores improved at a 
rate double that of the average for all D.C. public and private 
schools. Our graduates now persist in college at a rate 20 
percent higher than the national average. We are just one of 
many private schools in the District innovating every day to do 
better by all of our students.
    As a District of Columbia taxpayer and as a school leader 
who received applications from students attending a very small 
handful of sub-par schools, I embrace measures that preserve 
our schools independent approaches without tolerating fiscal or 
academic irresponsibility. The D.C. charter schools faced 
challenges similar to those of so-called storefront OSP 
schools. In 2007, oversight of charter schools was streamlined 
and schools improved. Similarly, the OSP has a new 
administrator as of this fall. I urge you to allow that 
administrator to prove its effectiveness.
    I am proud of my city's educational progress. The most 
important reason to seek private school choice is not that 
public schools are bad. It is that choice is good. Wealthy and 
middle-income families have the means to explore private 
schools along with public and charter options. It seems 
fundamentally unfair for low-income families to have fewer 
choices than wealthy ones, as Senator Feinstein indicated.
    As OSP graduation data reveal, the mere presence of a full 
range of choices can improve outcomes for a low-income student. 
A growing body of research suggests that socioeconomically 
diverse schools improve achievement and social skills for all 
students. When the gap between high and low-income 
Washingtonians is at its highest since 1979, we risk real 
dangers to all of us if we allow children to grow up with 
unchallenged economic segregation. I would ask this Committee 
to consider the social as well as the academic benefits of OSP.
    Amid talk of data, it is easy to forget that the core of 
education is relationships among students and teachers. 
Education is not some intellectual car wash where we just 
perform a series of operations on kids and they come out bright 
and sparkly. It is a series of leaps that individual students' 
minds and hearts must make. The greater the leaps we ask 
students to make, the stronger must be their relationships with 
the people who are asking them to take those risks. 
Relationships are stronger when we choose them, as families do 
in the OSP.
    Dajanae is a bright, determined Carroll senior who, like 
some Members of Congress, was always convinced that she was 
right and resisted most attempts at constructive criticism, 
often landing her in the dean's office when she first arrived 
at our school. Now, she has become a student leader at Carroll. 
She told me, ``I never would have grown as much if I had not 
come here with the forgiveness and patience of the teachers.'' 
She is but one example of the students for whom choice of a 
school community has made all the difference.
    The OSP allows low-income students to foster relationships 
crucial to graduation in the same range of schools upper-income 
families have and I urge you to preserve the program on their 
behalf. Thank you.
    Chairman Johnson. Thank you, Ms. Blaufuss.
    Our next witness is Gary Jones. Mr. Jones is a father of 
five children with his wife of 21 years, Stacy, and resides in 
Ward 8 of the District of Columbia. Three of Mr. Jones' 
children have enrolled in private schools through the D.C. 
Opportunity Scholarship Program. For the past 2 years, Mr. 
Jones has spoken at rallies, attended hearings, and met with 
D.C. officials as a parent advocate of the program. Mr. Jones.

     TESTIMONY OF GARY JONES,\1\ PARENT, D.C. OPPORTUNITY 
             SCHOLARSHIP PROGRAM, WASHINGTON, D.C.

    Mr. Jones. Good morning, Senator Johnson. I would like to 
thank you for inviting me here. I would also like to thank the 
Committee members and Ranking Member Carper for also inviting 
me.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Jones appears in the Appendix on 
page 60.
---------------------------------------------------------------------------
    My story is this. My children have had the opportunity to 
attend D.C. schools in all three sectors, public, charter, and 
private schools, throughout the years with varying degrees of 
success. By far, we saw the greatest level of achievement for 
our children when we had them in private schools. Charters did 
not work for my children, while DCPS was mediocre, at best.
    From what I heard earlier from the earlier panel, I have to 
say this about charters. Charter schools, from my research and 
my family's experience, have not met their AYP, the annual year 
progress. When my children were in charter schools, my wife and 
I noticed that several students were being retained in the same 
class, like ninth and tenth grade, like, repeatedly.
    Public schools, like I said, I do not have any animosity 
toward them because my mother was a public school teacher, but, 
again, they were mediocre, at best.
    My three older children were OSP recipients under the old 
Washington Scholarship Fund, an administrator that gave 
siblings a preference for entry. This allowed my son, Joshua, 
and my daughters, Aaliyah and Yasmine, to attend the same 
schools. Joshua received a full scholarship and the sisters 
partial scholarships. This was a huge benefit to my older 
children and to our family, for which my wife and I are truly 
grateful.
    However, due to this Department of Education's 
misinterpretation of the law, my daughter, Sabirah, is in the 
OSP program through high school, yet my youngest daughter, 
Tiffany because she is already enrolled in a private school, is 
considered ineligible.
    I have to tell you, the financial burden is wearing on our 
family. I am currently making ends meet by working two jobs in 
order to keep my daughters together in the same school. They 
are in an educational community that I trust to keep them safe, 
educate them at a level that more than prepares them for 
college, and will give them a better future for their parents. 
Is that not the American dream? Having parental choice in 
education is what will give my children the best chance at the 
American dream.
    I am stunned and I am angry at the attitude of my 
representative, Delegate Eleanor Holmes Norton, and her 
opposition to this incredible program. Delegate Norton, like 
President Obama, only supports allowing the current children to 
finish the program while opposing the admitting of new 
students. What makes the children in the program now more 
deserving than the children who desperately want the same 
opportunities?
    Parents in parts of D.C. need good choices now and we 
cannot wait for schools to improve or waiting lists to drop. 
D.C. has a 58 percent dropout rate in the District of Columbia 
Public Schools. My three older children, who, after they left 
the Washington Scholarship Program, they went to Ballou Senior 
High School, where they did graduate, but that was a one-
percent graduation rate for the seniors each year.
    Ms. Norton talked about accountability. As has been stated, 
more than 98 percent of OSP kids graduate and go on to college. 
That is accountability. Some of the best private schools in 
D.C. participate in the OSP program, including Sidwell Friends, 
where the Obama girls go, Archbishop John Carroll, Georgetown 
Day, Gonzaga, and my children's school, St. Thomas More 
Catholic Academy. Those individuals who are more fortunate can 
afford to send their children to schools on this list.
    The public schools in this city have failed tens of 
thousands 
of children over the years, and while there has been 
improvement--I must be fair, there has been gradual 
improvement--they are nowhere near where they need to be. As a 
parent, what should we do, continue to wait? I do not think 
that is fair.
    Sadly, eight members of the D.C. City Council signed a 
letter saying they oppose the program, one of whom his son 
attends Gonzaga High School, which I found hypocritical. I do 
not remember any of these Council members, including my own, 
who guaranteed me that she was for this program, ask me or any 
of the 1,600 families that take advantage of this fantastic 
program our opinion. Do any of these City Council members have 
any idea how much this initiative generates in additional funds 
for all of the District's children, whether they are in the 
D.C. Public Schools, charter schools, or the OSP schools? Do 
these Council members really want to turn their backs on 
millions of dollars? Where is the logic in that line of 
thinking?
    The D.C. OSP program is an amazing program, and for those 
of us fortunate enough to have a child in this program, we are 
very grateful and we say we thank you from the bottom of our 
hearts.
    It makes a difference. We, the families, have seen this 
program make a difference in our children's lives and want this 
program to be reauthorized. We, the families, want the law to 
be followed so siblings get preference. We, the families, want 
to make sure that other families desperate for a better 
educational environment for their children get this 
opportunity. We, the families, are desperate for an ongoing 
choice. We will continue to fight for those who have not had 
this life-changing opportunity.
    I thank you for the opportunity to testify today in support 
of this reauthorization for this program. Thank you.
    Chairman Johnson. Thank you, Mr. Jones.
    Our next witness, we are very pleased to have Linda Cruz 
Catalan. Ms. Catalan is a high school senior at the Field 
School, where she has attended for the past 4 years. Outside of 
her study, Ms. Catalan participates in cross country and in a 
traditional Mexican dance ensemble, volunteers at the National 
Museum of Natural History, and tutors with the Latino Student 
Fund and Girls Who Code. Ms. Catalan is considering several 
universities, where she intends to pursue a career in computer 
science. Ms. Catalan.

TESTIMONY OF LINDA CRUZ CATALAN,\1\ STUDENT, THE FIELD SCHOOL, 
                        WASHINGTON, D.C.

    Ms. Catalan. Thank you. My name is Linda Cruz Catalan and I 
am currently enrolled in the Field School in Washington, D.C., 
so I am going to talk a little bit more about myself.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Cruz appears in the Appendix on 
page 62.
---------------------------------------------------------------------------
    At Field, I have had the opportunity to learn, create, and 
build connections that will last me years and years to come. I 
am extremely lucky to be going to the Field School itself. I 
have always come from a low-income family. My parents work 
extremely hard to pay for clothes, food, and the townhouse we 
live in. They are the two hardest working people I have known 
today and they are extremely resilient. In my mind, they have 
always been the pure image of what it means to make something 
out of nothing.
    Before Field, I went to a school called Oyster Adams 
Bilingual School. This school was a very good stepping stone in 
my life and I was exposed to a lot of cultures and backgrounds. 
Besides seeing kids from middle-class families who could afford 
a high school education for their children, I also saw kids who 
were from lower-income families, like mine. These kids usually 
went on to local high schools, which was next in line for them 
if they did not either pay for a private school education or 
take advantage of programs and scholarships to get them there. 
I saw that a lot of these kids had multiple problems, meaning 
that a large public high school would not be beneficial for 
them.
    At the time I was associated with a program, and still am, 
with a program that gives underprivileged kids these 
opportunities called D.C. Opportunity. They helped me and gave 
me these opportunities, the biggest one being the opportunity 
to go to the Field School. This program awarded me with a 
$12,000 scholarship to attend the school of my choice. Since 
2004, there have been 16,000 children that applied for this 
opportunity in the Washington, DC. area, and I was one of the 
lucky finalists to receive this opportunity to go to the Field 
School.
    So far, through my lifetime, I have seen many 
underprivileged kids that come from lower-class families and do 
not have the opportunity that other scholarships like these are 
giving them, and most of these kids are extremely smart and 
deserve a big future where they can get educated in any 
institution they choose. I recommend that kids enroll in all 
these programs similar to D.C. Opportunity.
    I currently am interested in math programming, engineering, 
and dance, and I wish to explore these things far into my 
future without anybody telling me I cannot do it just because 
of my background and socioeconomic class. If it was not for 
these many opportunities, I would not have been able to explore 
all these in the Field School and have the amazing privilege to 
explore them throughout the college of my choosing. Eventually, 
I wish to have a fruitful career in one of these fields and I 
am confident that I can do so.
    And to add in, I am very thankful for everyone who is 
giving us, a student like me, these opportunities to study in 
college. And, again, I am not saying I had a great education 
from the Montessori I went to from pre-K to kinder and then 
Oyster Adams, but after college, my family struggled to find 
the right education. It was either my neighborhood school that 
I would have gone to, but in that time, I was enrolled in a 
program that found the school right for me. And especially as a 
kid who struggled with being in a middle school class of 35 
kids in one classroom, now, I am able to talk to my teacher 
one-on-one after school and during class, when my smallest 
class now, which is currently computer science, where we are 
only six students in that classroom.
    And, I am extremely grateful for these opportunities that 
teachers, everyone, staff members, everyone in the school are 
offering. And, that is my story. Thank you.
    Chairman Johnson. Well, thank you. I think we all are 
really glad that you got those opportunities, and I think we 
also think you are going to go far, so we really appreciate 
your testimony.
    Our final witness is Dr. Christopher Lubienski. Dr. 
Lubienski is a Professor of Education Policy and the Director 
of the Forum on the Future of Public Education at the 
University of Illinois. Dr. Lubienski is a Fellow with the 
National Education Policy Center and Co-Chair of the K through 
12 Working Group with the Scholar Strategy Network at Harvard 
University. Dr. Lubienski has published over 80 academic 
papers, with his most recent publication being ``The Public 
School Advantage: Why Public Schools Outperform Private 
Schools.'' Dr. Lubienski.

  TESTIMONY OF CHRISTOPHER A. LUBIENSKI, PH.D.,\1\ PROFESSOR, 
 EDUCATION POLICY, ORGANIZATION AND LEADERSHIP, UNIVERSITY OF 
                 ILLINOIS, CHAMPAIGN, ILLINOIS

    Dr. Lubienski. Thank you. I appreciate this opportunity to 
speak with you about our shared goal of providing quality 
education for all children.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Lubienski appears in the Appendix 
on page 64.
---------------------------------------------------------------------------
    My name is Chris Lubienski. I am a professor at the 
University of Illinois and my research over the past two 
decades has centered on the impacts of school choice policies, 
things like charter schools and vouchers, in the U.S. and in 
other countries, as well.
    Research on school choice and vouchers, in particular, is 
typically focused on the question of academic achievements, and 
for good reason. As you know, the official evaluation of the 
D.C. Opportunity Scholarship Program concluded there was no 
conclusive evidence the program affected student achievement. 
After 3 years, there were impacts for some groups of students 
in reading, but not in math, and not for other groups, and not 
overall. Positive impacts were also reported on graduation 
rates for a somewhat different set of students.
    These results generally reflect the findings of other 
voucher studies, where any impacts appear infrequently and 
inconsistently across groups and sub-groups of students, across 
cities, grade levels, and subject areas. Working with my 
collaborator at Illinois, Jameson Brewer, I examined the 
findings of studies frequently held out as the highest quality 
research in support of vouchers, which covered programs in five 
cities, including Washington.
    While the analyses typically found no overall impacts from 
vouchers, in the cases where impacts were evident for some sub-
groups, any effects were erratic, showing up for some students 
in one subject, but not for the same students in a different 
subject, or year, or in a different city.
    For instance, in a previous evaluation of an earlier 
program in Washington, researchers found a positive impact for 
African-American students in year two, but negative and 
insignificant effects for those same students in years one and 
three, with no impacts on any other ethnic groups. This raises 
questions as to why. Why are we seeing such variability?
    This is somewhat surprising, given the strong theory behind 
vouchers. We have had voucher programs in the U.S. for a 
quarter-century, and the reasons why we thought they would work 
to improve outcomes have not really played out. As Princeton 
economist Cecilia Rouse has observed, the best research to date 
finds relatively small achievement gains for students offered 
vouchers, most of which are not statistically different from 
zero.
    Although the benefits have been somewhat elusive, it is 
quite reasonable to ask, should we still support such programs 
so long as no one is shown to be harmed? I am less persuaded by 
the argument that there is no evidence of harm, simply because 
most studies have not been designed to identify measures of 
negative impacts, and I say that for two reasons.
    First, it is reasonable to think that some students, in 
fact, have not had a positive experience with these programs, 
while others, including many of the people in this room, have 
no doubt benefited substantially from voucher programs. Since 
the overall academic impacts are typically not statistically 
different from zero, that would suggest that for every student 
benefiting, there is approximately one other who has had a 
negative experience.
    And, second, most evaluations have not really studied the 
effects of vouchers on non-voucher schools. Specifically, what 
happens to the children left behind in struggling schools when 
classmates with concerned and motivated parents leave?
    Research going back to the 1960s, including my recent 
federally funded research with Sarah Lubienski, strongly 
suggests that a student's peers have a major influence on that 
student's learning, with this so-called peer effect having a 
much more consistent impact than voucher programs have been 
shown to exert. In fact, it is quite likely that exposure to a 
higher level of what Chingos and Peterson call ``peer quality'' 
in private schools explains much of the academic outcomes in 
voucher studies, particularly in reading, for reasons which I 
could explain, and in graduation rates. Unfortunately, this 
issue is not typically examined in studies of voucher programs, 
yet in all likelihood contributes to a diminishing educational 
experience for those students left behind in struggling 
schools.
    In conclusion, there are reasons for caution in hearing 
claims about the benefits of vouchers. Overall, in looking at 
the potential and measured outcomes of these programs, I would 
say that there are better arguments for vouchers than their 
academic impacts.
    Again, I want to thank you for this opportunity to share my 
assessment with you and for your interest in this really 
important issue. Thanks.
    Chairman Johnson. Thank you, Dr. Lubienski.
    Ms. Catalan, I just want to quickly ask you, you said you 
were lucky to obtain that voucher. How long did you wait to 
find out whether you were one of the lucky lottery winners and 
what was that like waiting?
    Ms. Catalan. Well, I was very nervous of waiting. I think, 
definitely, I am going to go straight to the point that if it 
were not for my parents, I would not have been at the Field 
School, because especially as a middle schooler just focused on 
academics, trying to be a straight-A student, trying to get the 
best grades I can, I really did not think of high school. I did 
not think of the high school I was going to, and my parents are 
the ones, really, who decided, Linda, I think this will be the 
best opportunity for you, where you do not have to stay at that 
one A grade, where you will be able to struggle in classes, 
where you are going to have the opportunity to step up.
    It was--personally, after I found out that I received the 
scholarship, of course, I was very happy, along with the other 
students. I was nervous, as well, because I was going to a 
complete different school. I was going to miss my experience at 
Oyster that I had for the 8 years and--and the wait, I 
definitely cannot talk much about that, because that was most 
of the part of my parents.
    But, again, going back to that, I believe that is 
important, that the parents do know, as well, that there are 
opportunities out there for their kids, because I know students 
now who wish, wow, I wish my parents did this for me, and I 
think that is important.
    Chairman Johnson. So, it was hard working, caring motivated 
parents.
    Ms. Catalan. Yes, and I am thankful.
    Chairman Johnson. I had the same benefit, by the way. 
People say I was a hard worker. That is because my Mom and Dad 
made me. So, glad you have great parents.
    Mr. Chavous, you made a comment that said, it is puzzling 
how anyone can be opposed. I mean, I agree. It is. And, I 
think, Ms. Blaufuss, you said choice is good. Is that not just 
obvious, giving people choice, letting people have the freedom 
to choose opportunity for their children?
    So, that begs the question, why do people oppose?
    Mr. Chavous. Well, I think that this has become such a 
polarizing issue politically largely because of the political 
arm of the Teachers' Union, I think, and it has been couched in 
terms of an either/or proposition. The education of our 
children should not be cast in partisan terms, nor should it be 
cast in terms of either/or. The beauty of choice, as we move 
down this road toward personalized learning--and that is where 
it is all headed.
    Anyone who looks at the trends, just like we all have 
individual smartphones, we are headed toward this brave new 
world of personalized learning where choice is going to matter, 
and you will have kids in high school who will take classes at 
a community college for credits and they will take a virtual 
blended program and go into a traditional setting and they will 
end up with a diverse experience on their way toward 
personalized learning.
    And, the beauty of choice is that it gives parents a stake 
in the game early in the process. When people talk about 
studies and why they are against it, they should look at Paul 
Peterson's work or Patrick Wolf's work, who did the study on 
this program. Beth's comment about it being one of the best 
dropout prevention programs around, I think that the politics, 
the partisanship, and, unfortunately, the tendency not to put 
kids first and their interests first is one of the main reasons 
why this has become so polarizing.
    But, the reality is, and Beth knows this, being hands on, 
is that she made a really good point about beyond the studies, 
if you look at the change, the life trajectory at these 
programs and the kids who get these programs benefit from, and 
the change in their academic habits, the way they view the 
world, their ability to excite what is possible where otherwise 
it was not there, that has had a huge benefit. And I would 
commit that you should look at Paul Peterson's study of those 
African-American kids in New York who received private school 
scholarships and that bears that out.
    Chairman Johnson. So, just quickly, you quoted a 91 percent 
graduation rate of those schools with Opportunity Scholarships 
compared to--do you have just the percentage?
    Mr. Chavous. I think it is--D.C. Public Schools is 60 
percent. It is around 60 percent.
    Chairman Johnson. That is a significant difference right 
there.
    Mr. Chavous. It is a significant----
    Chairman Johnson. And I know Ms. Blaufuss mentioned a 21 
percent higher graduation rate.
    So, just to quickly summarize, you are saying the 
opposition comes from the Teachers' Unions for whatever reason. 
That is the primary opposition to this.
    Mr. Chavous. Yes, and the reality is, the only people who 
really are against school choice are the ones who have it.
    Chairman Johnson. Often, I think, back in the State of 
Wisconsin, the argument is made, well, you are robbing--you are 
taking money away from the public system and allocating it 
there, so you are going to disadvantage kids in public school. 
In case of the D.C. Opportunity Scholarship Program, that is 
actually--because of this program, there is another $622 
million per year flowing into the District's schools, right?
    Mr. Chavous. Yes----
    Chairman Johnson. So, there is no robbing Peter to pay Paul 

in this case. There is actually a net increase in funding for 
the D.C.--so that certainly cannot be used as an argument.
    Mr. Chavous. They have more than any other sector over the 
last 10 years.
    Chairman Johnson. So, again, so, tell me in your words, why 
is the Teachers' Union opposed to this in the D.C. school 
system? It makes no sense. You said it is puzzling. I am 
puzzled, as well.
    Mr. Chavous. Well, I do not know why. I do think that, as I 
said, the politics of the day is the biggest challenge. But, I 
also think that people are used to the fight in education, and 
if we really are looking at what is best for kids, then there 
is no way to be against this program.
    Chairman Johnson. I agree.
    Ms. Blaufuss, how do you measure what you instill in 
students in your school? And again, Senator Carper and I were 
there. We saw a safe and nurturing environment. I was in one 
classroom, kind of a quasi-religious--by the way, the number of 
Catholics or percentage of Catholics is slightly more than 20 
percent, right----
    Ms. Blaufuss. It is 24 percent.
    Chairman Johnson [continuing]. So you are a very ecumenical 
school.
    Ms. Blaufuss. Yes.
    Chairman Johnson. One classroom, and the discussion was the 
students' definition of ``love'' versus Webster's definition, 
and I will tell you, what the students as a class came up with 
was a far more meaningful definition of ``love'' than the very 
dry definition. So, just sitting in that safe and nurturing 
environment and hearing that very high level discussion was 
really inspiring. How do you measure that?
    Ms. Blaufuss. I think that is a great question, because 
metrics are incredibly important in education and we look at a 
host of different testing data in order to determine whether we 
are doing right by our students. We just happen to like the 
tests we have chosen. So, we are an International Baccalaureate 
Diploma program school, internationally recognized rigorous 
college preparatory program. So, we use the information that 
those tests tell us not only to figure out how we are doing, 
but to pinpoint solutions to help us do better.
    But, as you point out, there is a whole set of 
characteristics that are going to help someone be successful in 
college, as a parent, as a coworker in a workplace, that we as 
a Nation, I do not think, yet have metrics for. And, I think we 
cannot, as educators, only commit ourselves to those things 
that we are going to measure. And I think that is one of the 
great advantages we have as an institution, is to spend time 
working on how our kids get along, helping cultivate their 
virtue, hearing from them the strategies that help them be more 
virtuous.
    We are still looking for ways to measure virtue. I think if 
anyone comes up with a metric, I would be grateful for it. But, 
nevertheless, we do not let the lack of metrics dictate the 
importance of those characteristics as part of----
    Chairman Johnson. One measure is just having schools that 
are allowed to teach it, and values, and morals, and the 
parental involvement. The reason I thought the Catholic school 
system in Oshkosh was such a special place was because of that 
parental involvement, because they were able to teach morals 
and values and virtue. That is extremely powerful, and I am not 
sure that is going to show up in any test scores or anything 
else, but it sure shows up in character and sure shows up in 
achievement and success in life. Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    It is great to see all of you. I am sorry I was not here 
when you started your testimony. I was testifying myself before 
the Senate Budget Committee on a proposal for a 2-year budget 
process for the Federal Government. So, I missed most of your 
testimonies.
    Linda, I caught the tail end of yours and you are one of 
the best witnesses I have seen lately. Actually, this was a 
good panel, how old are you now, 27?
    Ms. Catalan. Seventeen years old. [Laughter.]
    Senator Carper. Pretty impressive. [Laughter.]
    I listened to all of you, and especially you, Linda, 
testifying, reminded me--and the Chairman has already just said 
this and I am going to reiterate it--I am a recovering 
Governor. I served as Governor of the State of Delaware, a 
great privilege, from 1993 to 2001, and we focused every day on 
raising student achievement, every single day. We adopted 
charter schools, public school choice. If you happen to be a 
kid in a school district--we have 19 school districts. If you 
happen to be a kid and, let us say, you are 6 years old and you 
are a first grader and there are five elementary schools in 
your district, public school choice, if they have room, you can 
go to any one of those other four schools and the money follows 
the student.
    I love competition, and it has been engendered by public 
school choice and charter schools. This next September when 
school reconvenes, about 10 months from now, half the kids in 
the city of Wilmington will be going to public charter schools.
    We have great traditional public schools in Delaware and 
one of them is Mount Pleasant, a high school which is about two 
miles from my home. And, Beth, I go for long runs on Sunday 
mornings before church and I run on their track. But inside 
that school during Monday through Friday, it is an IB school 
and they have done great things, traditional public school, by 
trying something different, experimenting.
    But, I am reminded here today as I was every day I was 
Governor, the greatest predictor of kids doing well in school 
is the expectation of their parents. If you have somebody at 
home, at least one somebody at home in your life that has a 
high expectation of you, not just to say, oh, I expect you to 
do well, but actually help, set an example, personal example, 
work with kids early on, we read with our boys who are now 25 
and 27 almost from the day they were born. They came home from 
the hospital, started reading, continued to read. Even right up 
through the eighth grade, I read to Ben the Harry Potter 
novels. I think I enjoyed that as much as he did, probably 
more. Then he started reading to me, which was even better. Can 
I go to bed, Ben? ``No,'' he said. ``No, Dad. You have to stay 
up until I finish this book.''
    But, a great predictor of kids doing well, expectation of 
their parents. Another great predictor of kids doing well, 
early childhood, and reading is part of it, but the earlier 
that we start, the better. You have a bunch of kids coming into 
kindergarten at the age of five. They do not know their 
letters. They do not know their numbers. They cannot read. They 
cannot do math. They cannot write. And they are sitting next to 
kids who can, and the kids who can just go faster and faster 
and faster, and the kids who cannot go slower and slower and 
slower. And we end up with a situation where we have a lot of 
disruptions, kids acting out, and we see that every day in our 
schools.
    I think the other key is clearly spelling out what we 
expect kids to know and be able to do in math and science and 
English and social studies, have an ability to measure student 
progress there, and having great teachers, great teachers in 
the classrooms who love kids, who know their stuff, who make 
learning fun, make learning relevant to what is going on in the 
lives of kids after on.
    And then we have different ways to try to create 
competition. We have different ways to create competition, and 
I have mentioned a couple that seem to work in our State. We 
have a variety of ways to engender competition here in the 
District of Columbia.
    What I would like to do is in this conversation is just 
have a chance to figure out why, for kids for whom this program 
seems to work, why is it working well and what are some ways we 
can make it better. Everything I do, I know I can do better. 
Everything we have done in education in Delaware, I know we can 
do better and hopefully continue to do better.
    But, let us just look at this program in the District of 
Columbia. Dr. Lubienski, let me just start with you. I think 
this program is going to be reauthorized. I think it is 
important that when it is, is that we do it in a way so that it 
is going to be better, that it is going to be better. Give us 
an idea or two how we can make it better, please.
    Mr. Lubienski. Excellent question. I know that there is 
some discussion about--in the reauthorization of the program 
about how to evaluate that and whether or not you should use 
randomized control trials. I think Representative Norton 
weighed in on that. Can I suggest that randomized control 
trials are seen as being very strong, rigorous experiments that 
answer a very narrow question, and so there was talk about 
moving toward more quasi-experimental approaches.
    Personally, I think that there is value to different types 
of approaches for understanding an intervention like this. What 
I really would like to see in terms of the evaluation is for 
the evaluators also to consider the impacts of the family 
background factors and how those are clustered into different 
schools. I think research has shown pretty convincingly that it 
is not necessarily a voucher or a piece of paper that teaches 
kids. It is these other factors, as well, and we are not really 
considering those in the evaluations of these programs. So, I 
would point in that direction.
    Senator Carper. Good. Thanks.
    Linda, just give me one idea, one idea from the experience 
you have had in school, one change we could make that would 
make this program even more effective for a broader range of 
kids.
    Ms. Catalan. I am going to have to agree. From experience 
from students who had complained, actually, about scholarship 
programs and programs like these where there was more 
background research needed in order to, like, be accepted into 
this program, I recently personally, even--I have been through 
this. I recently applied for a scholarship program for college 
and was denied the scholarship because I go to a private 
school, so assuming I have the money to afford for this $41,000 
tuition it is just for tuition for Field School. They assumed 
immediately after I contacted them that I am able to pay for 
this, and I think a lot of background research needs to be----
    Senator Carper. OK. Thank you, ma'am.
    Mr. Jones, give me one really good idea how to make this 
program better, more effective.
    Mr. Jones. Well, again, to piggyback, it is looking into 
the family background, the family history, of the socioeconomic 
condition of the family. I also think that more money should be 
put into the program for immersion programs, like language 
immersion programs, especially in a primary age, a middle 
school age, art immersion programs, things like that. Those 
things help benefit the students and make them more rounded and 
cultured going forward into high school and into college.
    Senator Carper. All right. Thank you.
    Ms. Blaufuss. By the way, it was great being in your 
school. Thanks for the warm welcome. It was much appreciated.
    Ms. Blaufuss. Thank you. I am going to push my luck and 
propose two improvements. One is really continuation of the 
existing legislation, and that is to continue funding for 
academic support as a piece of the bill, and I know the new 
administrator is going to work harder to make sure that money 
is actually used. It was not used in the last 5 years, even 
though it was part of the bill, and I think it is crucial to 
the bill's success.
    The second suggestion I would have is to make being 
currently enrolled in a private school not be a disqualifier. 
To disqualify kids because they are currently enrolled in 
private school seems to imply that a family's economic status 
will be the same from kindergarten through high school. So, it 
assumes that no one is ever going to lose their job, no one's 
dad is ever going to die, no one's parent is ever going to 
suffer from mental illness. So, to say that kids who are 
currently enrolled in private school who otherwise in every way 
qualify for the program are disqualified from it, it seems to 
me fundamentally against the spirit of what the bill is trying 
to accomplish.
    Senator Carper. All right. Thanks. Mr. Chavous.
    Mr. Chavous. In addition to us as the new administrator 
really drilling down and dealing with the transparency issue 
and some of the nuts and bolts day-to-day things that they 
mentioned, which we think is important, I also think that there 
are some carryover funds that could be used to maximize some 
scholarships.
    We plan on having an aggressive outreach program with 
parents. The parent engagement piece is always something that 
is put at the end of the priority list. We want to elevate that 
so parents can be educated consumers and understand the 
responsibility of how to pick the right school for their child 
and how to be an advocate for their child, and I think that is 
going to make a huge difference, so that parents like Mr. Jones 
can make educated choices about any of the options that are 
available. But, if we have access to those carryover funds, we 
can give more scholarships to this new breed of educated 
parents that we hope can take advantage of choice here in the 
District.
    Senator Carper. Great. Thanks so much.
    Chairman Johnson. Senator Booker.

              OPENING STATEMENT OF SENATOR BOOKER

    Senator Booker. Mr. Chairman, thank you very much for 
holding this, and I appreciate the work that you are doing in a 
bipartisan way to try to advance what I think is important 
legislation.
    I want to thank all the members of the panel for all of 
their extraordinary and enlightening testimony.
    Linda, honestly, I have seen many people testify. Many of 
them would love just a fraction of the poise and confidence you 
showed when you spoke. It is extraordinary. When I was 17, my 
biggest fear was speaking in front of people. I would have been 
shaking and you looked like a pro, better than many Senators, 
so thank you very much.
    And, I just want to say that Kevin Chavous, he and I have 
been friends for decades now, when we both had very large 
Afros---- [Laughter.]
    And I just want to thank you, man. You have been a partner 
and ally of mine, somebody that has been helping me back in the 
days when these issues were not popular at all. So, I am 
grateful that you are here.
    Mr. Chairman, I just want to start off with something, 
because there is too much vilification, in my opinion, in this 
movement, especially around Teachers' Unions. There are States 
in America right now that are Right to Work States that do not 
have strong Teachers' Unions but still have failing schools. 
And, to me, we are too focused in on creating an enemy and not 
nearly focused enough on what needs to get done, which in this 
country that professes to believe in equal opportunity, that 
has children across the country pledging allegiance every 
single day to this ideal of liberty and justice for all, well, 
that is a lie to many kids because they do not get the justice 
of a great education.
    And, Federal policy over the years has allowed certain 
neighborhoods to be drained of their wealth through the Federal 
Housing Administration (FHA) policy that has created ghettos 
through consciously bigoted Federal actions, that has allowed 
certain people to opt out of the public schools.
    I listened to Dr. Lubienski talking about--and I had to 
scratch my head--about the peer impact on when some kids opt 
out and some do not. Well, that is America right now, because 
rich and middle-class kids are getting to opt out of the 
system. And, so, the current landscape reflects our tolerance 
of allowing the wealthy to opt-out of the system, but shrieks 
of do not let poor people do it, dear God and when discussion 
of extending that privilege to low-income families occurs.
    And, so, my point right now is that we must have a focus on 
educating all children. I am sick and tired of seeing the 
pipeline school-to-person play out ending with sending our 
children to prison. In fact, it is eight times more likely for 
a kid who does not graduate from high school to be arrested. We 
are fueling the biggest bureaucratic growth in government. It 
is the prison system, which has gone up 800 percent on the 
Federal level because of the failure to educate our kids, to 
cultivate their genius. That is unacceptable to me.
    And, so, these debates often become about everything but 
poor kids getting a shot. And, by the way, these kids are our 
children. They are the greatest natural resource this country 
has. There are poets and artists and scientists and Senators in 
our schools who are not getting a shot because of these choked 
systems.
    And, so, I am dedicated to the idea that the American 
public--public education is a bedrock, fundamental aspect of 
this country. It is what makes us a great democracy. And the 
fact that we believe that public education should be diverse 
and allow poor kids to have choice, to me, that is something I 
have been fighting for my entire career.
    I am happy to see Eleanor Holmes Norton recognize that 
choice in education encompasses both District schools and 
charter schools. You know that, Kevin. That sentiment would not 
have been heard 5 or 10 years ago. My city, which was recently 
recognized by the Brookings Institution--Newark, where I live--
as one of the top cities in America for choice, what has 
happened over the 8 years of our choice movement in Newark? 
Black children in my city that are attending schools that beat 
the State average have increased 300 percent. The data, and the 
data from Center for Research on Education Outcomes (CREDO), 
which, about this one city, is extraordinary pertaining to the 
quality education we are providing when we allow parents like 
Gary the greatest power you could have, to choose the destiny 
of your child.
    And, so, this hearing is something rare I have ever seen 
during my time in Washington, where we have a program where 
politicians are basically saying, we are not going to cut 
something here, one program for poverty, in order to put 
something there. We are going to actually increase funding to 
District schools. We are going to increase funding to charter 
schools. And we are going to increase funding to scholarships. 
I wish this Congress was as committed to increasing funding for 
poor kids as it is in this little area called this three-prong 
approach, Kevin, that you were one of the main architects of 
back in the day.
    And, so, what my interest is, is making sure that those 
choices for children, which I deeply believe should extend to 
poor kids in the same manner in which they are entended to rich 
kids, that those choices are quality choices, and this is what 
I want in America, that there is accountability in our schools. 
I do not believe in charter scholarship District schools. I 
have a simple way I look at schools, good schools or bad 
schools, and the problem with a lot of charter schools is they 
do not close. They fail to teach kids at high levels and then 
they keep going in perpetuity.
    And, so, what we need to have, in my opinion, is a robust 
program--if we are going to do this in Washington and deny 
Washington residents the right to control their own schools--
look, I 
had to deal with that in Newark, having the State take over a 
district--but if we are going to deny the right for 
Washingtonians to choose their own destiny and design a 
program, let us do everything within this program to give poor 
kids choice of quality options. That is the urgency that I have 
right now.
    Now, this bill, and I am going to get to Christopher, if I 
have the time, to say there are flaws in it. There are flaws. I 
do not understand how you can design a scholarship program, 
Kevin, that says some of your kids get about $28,000 per child 
and then another system gets only $12,000 per child. That is 
shortchanging, in my opinion, a whole bunch of kids.
    And, so, if you want to understand why a lot of the 
schools--Sidwell Friends, I could name the private schools in 
this that, if I had children--may God bless me 1 day and get my 
mother off my back---- [Laughter.]
    But if I had kids, if I had kids, I would do whatever--I 
would be in Gary's camp. I am going to do whatever it takes to 
fight to get my children in the best schools possible. This 
scholarship program does not allow that because the scholarship 
amount is too low.
    And, so, I have some questions, Chairman, but I just used 
my 7 minutes to talk a little bit, and----
    Chairman Johnson. You used them very effectively. I 
appreciate it.
    Senator Booker. Thank you very much, and I will wait for 
another round if I should be so lucky.
    Chairman Johnson. I do need to see a picture of you in that 
Afro, though. [Laughter.]
    I think, quite honestly now, all America wants to see that 
Afro.
    Senator Booker. If Tim Scott shows his pictures, I will 
show mine. [Laughter.]
    Chairman Johnson. I do have more questions, so if you stick 
around, you will probably get a chance to ask some. Senator 
Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman.
    This obviously is not an issue that affects my 
constituencies much. The underserved constituents in my State 
do not have access to a robust private school system, and so, 
obviously, it is not an issue that we have confronted. But, I 
do have a great deal of sympathy as we look at Native 
Americans, who have experienced historically low rates. You all 
have talked about dropout rates. The lowest dropout rates in 
the country are among Native American students, especially 
those in Indian Country. And, so, I share a lot of this passion 
and I share a lot of the concern that we have about making sure 
all of our schools function, that all of our schools are 
utilizing their resources to do the right thing for the 
children of America.
    We continue to be very challenged in public education, but 
one of the concerns that I have is we have just gone through a 
rewrite of No Child Left Behind in the U.S. Senate, and in that 
rewrite, we were reminded consistently by Senator Lamar 
Alexander that we are not the national school board. We are not 
the national school board. This is something that should be 
left to local choice. This is something that local entities 
should make up their mind.
    And, I am always troubled in an overarching system with 
interference of Congress in local options and local decisions. 
Now, recognizing we cannot segregate or separate that 
relationship very easily, but I think we can be mindful and 
respectful.
    I think, Mr. Chavous, you talked a lot about the D.C. 
Council not supporting this program any more, and why do you 
think that they have taken this position, as a former 
Councilman yourself, and what would they do if we just said, it 
is up to you guys to decide? What would happen?
    Mr. Chavous. Well, first of all, let me just say, Senator, 
that yes, most education funding and policy is locally based, 
as you indicated. But it is clear, and Senator Booker alluded 
to this, that the District and the Federal Government has a 
special, unique relationship.
    Senator Heitkamp. Yes.
    Mr. Chavous. We do not have voting representation, and you 
all do sign off on our budget, which is wholly self-generated. 
And, so, there are different nuances to it. When Mayor Williams 
and I were approached 10 years, 12 years ago about this, it was 
to acknowledge the special relationships where there are some 
burdens and benefits to being citizens of the District and the 
Nation's capital at the same time, and the feeling was, let us 
figure out a way to make sure that the Federal Government has a 
stake in the Nation's capital. So, that was the genesis for the 
partnership----
    Senator Heitkamp. Yes, but I think my point is that where I 
have heard just wonderful testimony and great stories and 
certainly been absolutely charmed by the young woman here, I 
also want to make sure that we are respectful of whatever local 
governance you do have. And, so, as we kind of look forward, 
how do we get everybody--when you were there, this was, yes, 
let us do this program. Let us walk together.
    Mr. Chavous. Yes.
    Senator Heitkamp. And now it seems like we have gotten this 
division. How do we bring people back together at the District 
level to support one unified program without having that debate 
refereed by this Committee?
    Mr. Chavous. Well, one is information is power. I think 
that even in talking to some of the folks who signed the 
letter, they did not realize, for instance, it was a three-
sector strategy. So, if you get rid of the scholarship amount, 
you will get rid of the money that goes to D.C. Public Schools 
and D.C. Public Charter Schools. I think that you have newer 
members who do not understand the history, and we are told by 
some activists who are against the program that this is a 
voucher program exclusively. They did not understand all of 
that.
    Senator Heitkamp. Yes.
    Mr. Chavous. And, if you also pay close attention, you will 
notice that the Mayor and Chairman of the Council did not sign 
the letter. The Mayor has in the past signed letters in support 
of this program and the Chairman of the Council refused to sign 
this letter.
    So, I think that once we spend more time talking with the 
newer members, because there are several new members in the 
last couple years, about what this--the full impact of this 
partnership really is, they do not want to lose that money and 
they also want to make sure that we do lift all boats. I mean, 
I feel confident that we can bring most people together. Now, 
there are going to be some, and our Congresswoman is one of 
them, who just do not like the program for whatever reason. She 
did not like it ten or 12 years ago. She did not like it when a 
majority of the Council signed a letter a couple years ago. So, 
now with the new members we just have our work to do to educate 
people.
    Senator Heitkamp. And I think that is a critical piece, 
because I was encouraged when Senator Booker talked about how 
the Delegate was actually working with his office to improve 
it. I think we all believe that there should be higher levels 
of accountability. We believe that there should be review of 
the GAO report. But, ultimately, what I am looking for is some 
kind of broader consensus within the D.C. community, whether it 
is the school board or the Council, asking us for what they 
need rather than us telling them what to do, because we should 
not be your school board. Your community should be your school 
board and your school district should be your school board.
    I am not philosophically opposed to anything that moves 
children ahead. and, so, for me, this is not about philosophy 
nearly as much as it is about parental and local control and 
making sure that we hear those voices kind of broadly. And when 
political leadership that is supposed to represent the local 
folks send us mixed messages, it is a tough lift here, because 
we do not want to be your school board. I do not want to be 
your school board.
    Mr. Chavous. No, I appreciate that.
    Senator Heitkamp. I want you guys to be the school board.
    Mr. Chavous. No, I appreciate that, and then that is why 
many of us support statehood, which I expect many of you would 
support it for the same reasons. [Laughter.]
    Senator Heitkamp. I am sure the Chairman would be glad to 
answer that question. [Laughter.]
    But, I guess, to the extent that as we proceed with this 
bill you can, through your past experience, work to try and 
develop a better consensus at the----
    Mr. Chavous. Absolutely.
    Senator Heitkamp [continuing]. At the city level, at the 
school district level, with school leaders, so that you can 
come and say this is what--we are not going to make everybody 
happen, but this is what works for us and please be respectful 
of the decisions----
    Mr. Chavous. We are aggressively educating and engaging the 
City Council.
    Senator Heitkamp. Thank you, and thank you all for your 
love of your children, obviously reflected in your advocacy 
here, your amazing testimony, Beth. I was moved by all the work 
that you are doing. Obviously, we think that you might be 
President some day. And, it is important that we still have 
kind of an academic look-back, because anyone can come up with 
a feel good story, but we need to have a broader perspective, 
and so I look forward to working with the D.C. School District.
    Mr. Chavous. Thank you.
    Chairman Johnson. Thank you, Senator. Remember, we are 
trying to concentrate on those areas of agreement. [Laughter.]
    There is a fair amount of agreement on this issue.
    Senator Heitkamp. Mr. Chairman, I did not raise statehood. 
[Laughter.]
    Chairman Johnson. You just did. [Laughter.]
    Mr. Chavous, just real quick, in terms of numbers, I do not 
have the total amount that the District spends on its schools, 
but you do some calculations and it is looking like what the 
Federal Government is providing in this program is about a 
quarter. Is that close, or what is the breakdown----
    Mr. Chavous. I am not sure. I know that there is--over the 
last 10 years, you all have contributed in this program alone 
$239 million. I do not know the total number in terms of other 
contributions.
    Chairman Johnson. Well, the total amount by your testimony 
is $239 million for the public schools, $195 million for 
charters, $188 million for the scholarship program----
    Mr. Chavous. That is right. That is right.
    Chairman Johnson [continuing]. So that is $622 million in 
total.
    Mr. Chavous. Yes.
    Chairman Johnson. And if you just take $28,000 times the 
85,000 students, that is close to about $2.4 billion. But, it 
is a pretty significant chunk that the Federal Government is 
contributing.
    I want to go to the demand side of this and how much demand 
is it and what kind of waiting lists, because I was surprised 
by Representative Norton's assertion that there just really is 
not that much demand for this.
    Looking at Milwaukee, we have 77,000 students enrolled in K 
through 12, and because it is a very robust choice program, 33 
percent of those--25,000 students enrolled in the program 
represents 33 percent of student enrollment. Of those eligible, 
it is 42 percent. That is a high level of demand.
    Here in the District, you have 85,000 students and you have 
1,400 enrolled. I cannot believe there is that big of 
difference in terms of the demand for those opportunities.
    Mr. Chavous. No.
    Chairman Johnson. Can you just kind of speak to that, what 
is limiting it?
    Mr. Chavous. Yes. Mr. Chairman, we know there is demand, 
but people do not know what they do not know. So, part of it is 
we have to do a better job of letting people know these 
opportunities exist. For the average parent out there, and Gary 
Jones knows this, they do not even make the distinction between 
public, private, and charter. It is just, as Cory Booker said, 
it is about good schools.
    We know when the program first started, where there was 
more aggressive marketing by the administrator, more 
information in public housing and community centers, the demand 
grew. But over the past several years when there have been 
challenges, as the GAO report alluded to, with the previous 
administrator, when there were challenges in terms of 
relationships with the Department of Education and how many 
scholarships can be let out, the enrollment period, making sure 
that the sign-up period was consistent with the sign-up period 
for charter schools, oftentimes, there was a truncated schedule 
in terms of----
    Chairman Johnson. We make it very difficult.
    Mr. Chavous. It made it very difficult.
    Chairman Johnson. Yes.
    Mr. Chavous. But, we are confident that with our aggressive 
outreach to let people know that the demand is there and the 
proof is in the pudding, there is a demand of over 8,000 on the 
charter school list, and so we know that parents want more. We 
just have to make sure that they know that there is more out 
there that is available for them.
    Chairman Johnson. In the State of Wisconsin, when I was 
involved in the education system, I know we had an open 
enrollment period, where if you were going to public school, 
you can choose whichever public school you want to go to. You 
had an open enrollment period, but it was in the middle of 
February, and trust me, nobody knew about it. It was only a 
couple of weeks long, if I recall.
    Mr. Chavous. Yes.
    Chairman Johnson. Mr. Jones, can you speak to that.
    Mr. Jones. Well, I can say that our city leaders, they 
promote the charters more than they would the OSP private 
schools and parochial schools, and that is why a lot of parents 
do not know about it. Now, from my experience, because people 
have seen me at some of these rallies and have seen me speak, I 
have had people in my neighborhoods and communities walk up to 
me and they are asking me how to enroll their children in the 
OSP programs. When I re-enroll--every year, you have to re-
enroll your children in the program--there are lines going 
literally around the block and down the street because people 
want better choices for their children.
    So, I do not understand why Ms. Norton is saying that there 
is not a high demand for it. I know that people in Southeast 
Washington, DC. are wanting to get their children into better 
schools. And, like I said, it seems like our city leaders are 
more focused on charters as opposed to the private school 
sector.
    Chairman Johnson. I was pretty moved by your discussion of 
how you have one child, one daughter, that has the voucher, the 
other one that was already in private school so she does not 
qualify. So, then--we sent our kids to the same school and it 
was enormously beneficial that you had siblings in the school 
helping each other out. I mean, I do not want to break out 
those families. What is the rationale if you qualify--if one of 
your children qualified for the Opportunity Scholarship but the 
other one does not? I mean, what is the rationale for that? I 
know Ms. Blaufuss talked about that disqualification. Can you 
speak to that? Any rationale for that?
    Mr. Jones. What was explained to me 2 years ago when I 
first signed my daughters up for it was that the older one 
would probably get the scholarship, but because the program was 
a 5-year program, they had to do the assessments, the younger 
one would have to wait until that 5-year period before she 
could become eligible to receive a scholarship, which to me it 
just did not make any sense. So, that is the only reason that 
was given to us, is that you have to wait until this program is 
done and it is up for reauthorization and we have to do the 
assessments and then she can qualify for it.
    Chairman Johnson. So, right now, you are working two jobs 
to make sure that your children are together in the same 
school----
    Mr. Jones. Yes.
    Chairman Johnson [continuing]. To have that benefit of that 
sibling support system.
    Mr. Jones. Yes. What it was, I had the choice to make. Last 
year, my youngest daughter, Tiffany, she could have stayed in 
DCPS while Sabirah was, like, a quarter of a mile away at St. 
Thomas More. But, I mean, logistically, trying to get both kids 
to school at the same--on time, it was just wearing on me and 
my wife. So, I just made the decision. I was, like forget it. I 
will just have to pay out of pocket and do what I have to do.
    It is not like I did not like their public school when they 
were there, but because of what is going on with the school 
system, they kept closing schools, they were consolidating 
schools. Our school did not get closed, but it got consolidated 
and the principal was promised by the chancellor all these 
resources to help accommodate this influx of students. Well, it 
did not happen. So, I was a parent advocate for DCPS and I am 
fighting for resources and books and things that was promised 
to us by the chancellor and that left me, like with an option. 
Do I keep my child in this organized chaos, what I call it, or 
do I move her and pay out of pocket for it?
    I felt bad, because my children have always been honor roll 
students, but in Tiffany's fourth grade year, they got new 
teachers, young teachers who were not used to teaching kids in 
the inner city. You have 39 students in one class with one 
teacher and no teacher's aide, and she started to struggle. And 
I just could not afford to let my baby stay in that situation. 
So, when fifth grade came around, I said, I am going to put you 
in St. Thomas More. I took a second job to pay the $6,000-plus 
tuition.
    And I am glad I did, because in the fifth grade, it was 
even worse. There was still an influx of students because of 
the consolidation, and instead of having two fifth grade 
teachers, one quit the second day. So, the school was 
scrambling around trying to find another educator for this 
class.
    And, Tiffany has continued to progress in St. Thomas More. 
One of the things I love about it is because they get that--how 
do I say that--their spiritual aspect to it, they give the 
academic access to it, they also, like, when they do struggle, 
it is not that they come in and they are flying high in every 
class. They give them tutoring after school. The class size is 
somewhere between 12 to 15. They get one-on-one instruction 
when they need it. So, I just had to do what I had to do to 
make sure that they have the best opportunity to go far, 
through college and in life.
    Chairman Johnson. Yes. Well, first of all, thank you for 
being a great parent.
    Real quick, Dr. Lubienski. We started this journey, this 
Committee, with a field hearing in Milwaukee at St. Marcus 
Lutheran School on July 20, and we had an expert kind of like 
yourself in terms of trying to study the outcomes, which is 
very difficult. I mean, it is just very difficult to measure 
all these things.
    But, I look at, as Ms. Blaufuss talked about, just choice 
is good. Kind of keep it simple. The fact that graduation rates 
elevate from 67 percent to 91 percent. And then how do you 
measure what Mr. Jones was just talking about, that nurturing, 
that safety, the moral teaching, the values teaching? How do 
you measure that?
    Mr. Lubienski. That is an excellent question, and parents 
are measuring that by making choices for the types of schools 
that match their preferences for those types of things.
    I would want to caution about the comparison of the 
graduation rates from the voucher program and the D.C. Public 
Schools in general, or Milwaukee Public Schools in general. You 
are looking at two different populations, and so social 
scientists can say there is a likelihood that many of those 
students would have graduated no matter which type of school 
they went to.
    But, if I could respond to the issue about choice and 
choice 
for disadvantaged students, I mean, that is an excellent 
question. I really appreciate what Linda had to say. If not for 
her parents--and that is something to consider. Not everybody 
has parents like that, certainly. Choice can be a good thing. 
As I said, I think there is a strong moral argument for that. 
But is it leading to better outcomes or access to better 
schools? And, the research is much more equivocal about that.
    Last year, there was a study out from the Organization for 
Economic Cooperation and Development using Program for 
International Student Assessment (PISA) data. Countries that 
have higher levels of competition in their schools, more 
choices, are doing no better in terms of academic achievement, 
and schools in those countries that are more competitive and 
are based on choice are doing no better than other schools in 
those countries. However, they did find out that there are 
greater levels of segregation associated with choice. So, I 
think that we have to be concerned about some of those 
unintended outcomes, as well.
    Chairman Johnson. Thank you, Doctor. Senator Carper.
    Senator Carper. Thanks very much.
    I am a veteran, Vietnam veteran, came back from Southeast 
Asia, third tour, moved from California to Delaware, enrolled 
in an M.B.A. program and got $250 a month to go to school, 
grateful for every dollar of it. Today, veterans coming back 
from Afghanistan, if they served 3 years in our military, they 
can go to school--they can go to Rutgers free, tuition paid 
for, everything is paid. University of Delaware, University of 
Wisconsin, tuition paid for, books, fees, all that stuff, a 
$1,500 a month housing allowance, as well.
    You have a bunch of for-profit, and some of the for-profit 
colleges and universities in this country are very good, are 
very good. Some of them are not. They are diploma mills. They 
are preparing students for jobs that do not exist. They spend 
more money in recruiting students, a lot of them G.I.s, than 
they actually spend in training and preparing them for work.
    We have a rule under the Federal law. It is called the 90/
10 rule. Basically, it says that no more than 90 percent of a--
if you are a for-profit college and university's revenues can 
come from the Federal Government. There is a loophole that 
allows some of them to get up to 100 percent. And if you look 
at the number of schools that are not doing a good job--some 
are even shut down now around the country because they were not 
doing a very good job preparing folks for gainful employment. A 
lot of that can be traced right back to that situation.
    Here is my question. I am told we have some schools in this 
program whose revenues come from, I think 100 percent from 
vouchers from the Federal Government, 100 percent. The reason 
why we have the 90/10 rule is it says there have to be some 
market forces. These schools have to be good enough, these 
colleges and universities have to be good enough that somebody 
is going to spend their own money or work or whatever rather 
than just having the Federal taxpayer pay for it.
    Do you think that it is appropriate for the Federal 
Government really to fund 100 percent of the cost of these 
schools through Federal tuition? Go ahead, please. Beth.
    Ms. Blaufuss. I think that in looking at how one measures 
how the Federal dollars are used and the kinds of institutions 
that are taking them, I would ask us to keep our eye on the 
ball, which is student achievement and student educational 
attainment, rather than looking at the nature of the 
institutions where that is happening. I think the measure of a 
school should be the outcomes of the kids in it.
    So, I think my understanding is that some of the numbers 
that get thrown around, and Kevin may be able to share some of 
those numbers about the particular institutions, I am 
particularly wary of programs like, or amendments like the one 
that Delegate Norton proposed with putting what seems to me 
like an arbitrary cap on the number of OSP students at a 
school. It seems like the measure of a school is the students, 
not the nature of the institution.
    Having said that, all of the schools should be financially 
responsible and should have good financial oversight, which I 
think the regulator will make sure happens. So, I would just 
caution that the ultimate measure should be the kids.
    Senator Carper. Mr. Chavous.
    Mr. Chavous. Delegate Norton talked about the voucher mills 
and a lot of these schools popped up right after this bill 
passed. That is not the case. It is my understanding there are 
only two schools that emerged, new schools, after this bill 
passed. I think the vast majority of the schools in the 
program, and we are working on the numbers now, would clearly 
fall within the 90/10 rule and probably even less. I think most 
of the schools--I do not know of any of the schools that are 
100 percent, but I will have to check on that. I just am not 
sure. But, I think that that is an overstated impression. We 
can get you the exact numbers of the percentage of the 
schools--the number of schools and the percentage of kids who 
are on scholarship and how that looks in terms of their overall 
population.
    But, I also think that as we have seen in--what I do not 
want, I do not want us to be precipitous about putting limits 
on the ability to recruit great schools to service the distinct 
populations that we need to have served. In Indiana, for 
instance, where they have a voucher program that is the fastest 
growing in the country, have 30,000 students and it is growing, 
it is now outpacing charter school growth, they are very 
aggressive in finding schools that can serve underprivileged 
children, that serve children with certain acute needs, so that 
they can bring them in and offer those services up.
    And, so, as Beth has said, they are not as focused on the 
percentages, but making sure that they are accredited, they are 
solid programs, and that they will help fill in the gap where 
there is a shortfall in that particular jurisdiction.
    Senator Carper. OK. Same question, very briefly, please. 
Mr. Jones, do you want to just very briefly----
    Mr. Jones. Yes. From my perspective as a parent, these pop-
up schools that Ms. Norton is saying, again, I believe they are 
overstated. I know there had been a lot of pop-up charters, and 
again, this is from my own experience. There have been charters 
that are notorious for bringing in unaccredited teachers. They 
come in for one or 2 years. There is a lot of attrition going 
on with the teachers. And some of these schools have just been 
used as a prop to gain money for the individuals behind the 
schools, and that is a problem.
    I think that because they have so much autonomy, there is 
really not real genuine oversight to see what their academic 
achievement really is, whereas with schools that are in the OSP 
program, again, schools that I named earlier in my testimony, 
they have a long history of accountability and being accredited 
and being successful. It is the charter schools, really, that 
have been hurting, in my opinion, the D.C. Public Schools as 
well as the OSP program.
    Senator Carper. All right. Thanks.
    Linda, do you care to comment on this?
    Ms. Catalan. I am very biased about this, because speaking 
from the Field School, the Field School is a very wealthy 
school and the reason why my family, along with the scholarship 
that D.C. Opportunity gives me, I do not pay any of the tuition 
for Field, and I just personally have always wanted this to 
spread out throughout other public schools and charter schools, 
like it was mentioned before, of having--because I know that, 
definitely, there are schools that I visited, even, looking at 
the kids, looking at the parents, because, well, of course, the 
parents are the ones with the money and it is not evenly spread 
throughout the schools, and I think that is one of the most 
basic, important things that every school should need.
    Senator Carper. All right. Thank you.
    Dr. Lubienski, same question.
    Mr. Lubienski. Thank you. I do not have a position on where 
the cap should be or if there should be a cap. I can tell you 
that the figures that are often cited, for example, 82 percent 
of the parents are satisfied with their children's schools, are 
not very trustworthy because they are surveying parents who are 
currently in the schools and not the dissatisfied ones who have 
left. So, you have to take that into account.
    That said, recent research from Milwaukee, for example, 
shows that parent satisfaction levels are lower when there is a 
higher proportion of voucher students at a given school, and 
you can make of that what you want.
    Senator Carper. All right. Good. Thanks so much.
    Chairman Johnson. Senator Booker.
    Senator Booker. Thank you, and again, I just want to say I 
am thrilled that we are potentially making impactful investment 
as a Congress within this program. Again, if you want to talk 
about student achievement, dealing with some of the issues of 
poverty, it would be nice that we could fund programs like 
prenatal care which as I see the Doctor shaking his head in 
affirmation, would ensure all the kids in D.C., in New Jersey, 
and cities across the country got access to prenatal care. 
Models such as nurse-family partnerships, which entail nurse's 
visiting homes in the last trimester and first 2 years of 
infancy, demonstrates incredible data in improving student 
achievement.
    I wish we could be funding many other effective programs. 
The unfortunate thing, however, is that our failure to support 
things that work means that our teachers in public schools, 
District schools, charter schools, all have to deal with 
challenges that they should not have to deal with, and that is 
unfortunate that we are straining the capacity of our schools 
and our police officers because we are failing as a society to 
support things that actually work.
    But in terms of this program, there are a number of changes 
that we have sought to include in a reauthorization. Within one 
year of the enactment of the law, schools must pursue 
accreditation. That seems to me fair. Kevin, is that fair?
    Mr. Chavous. Absolutely. And we have been working with 
Senator Feinstein on that.
    Senator Booker. OK. No, I appreciate that, and that, to me, 
is something that is really important.
    Schools shall have annual reporting, report to parents of 
D.C. OSP students and college acceptance, vocational--again, 
just requiring more reporting. In other words, I have seen what 
some of the District schools have to deal with in terms of 
accountability and reporting and accreditation. That should 
apply, to some degree, to the schools that are participating in 
the program, correct?
    Mr. Chavous. Yes.
    Senator Booker. Kevin, thank you.
    And then the issue I brought up earlier, Kevin, if you can 
just comment on that for me, about the amount of the 
scholarship, because that seems to me something that is very 
frustrating to me, because we call this a choice program, but 
it does not seem like the kids with only $12,000, $12,500, get 
all that much choice. And there are a lot of schools that might 
be participating in the program if that was closer to what the 
per pupil expenditure was of about $28,400. And, one of the 
reasons, I think, one of the collateral consequences of a low 
rate means that those schools that bend over backward to allow 
those kids to come in end up with the very high percentages, 
where maybe you would not have such a high percentage 
concentrated in certain schools if more kids had more robust 
choices higher scholarship amounts would produce. Could you 
address that for me, Kevin?
    Mr. Chavous. Sure, and thank you so much for your support 
over the years and your friendship.
    Senator Booker. Yes.
    Mr. Chavous. So, I will say that, look, we would like to 
see bigger and larger amounts. There was an increase when it 
was reauthorized several years ago which was very helpful. And 
if we had a larger appropriation, yes, we could bring more 
schools in the program.
    And I do want to, frankly, give a shout out and a thank you 
to those schools that have higher tuition rates, they still 
take kids and they scholarship the rest. I mean, I think those 
schools have shown a real commitment.
    So, we would like to see larger scholarship amounts. It 
would help us attract more of the high-end schools, and a 
number of those high-end schools, when they do bring in our 
students, they also bring a full investment of tutorial 
services, mentoring. It is like they really welcome those 
students into the family, and she has done an amazing job of 
that, so that there is no stigma attached to them coming in, as 
we have seen.
    Senator Booker. Right.
    Mr. Chavous. So, I think that would be----
    Senator Booker. No, I appreciate it, and I appreciate, Ms. 
Blaufuss, what you were saying, because it resonates with me, 
this idea that government funding large percentages of these 
schools, well, with regard to charters and District schools 
whose government fund the whole thing, and without that 
funding, those schools would not exist. So, the focus should be 
on our children, on parents, and on the performance, 
ultimately, of those schools, as I think Dr. Lubienski gets to, 
and that is really, for me, what I care about. The quality of 
the education received should predominate our discussion first 
and foremost empowering those schools to achieve.
    Again, we disempower public education every day in America 
by sending kids to school who are nutritionally unfit to learn, 
who do not have mental health issues addressed, and then you 
have teachers in public schools, District schools, and private 
schools who have to deal with all kind of things before they 
even get to reading, writing, and arithmetic. I just want to 
keep emphasizing that.
    But, I just want to, real quick, there has been criticism, 
and I think you have had some, for the evaluation of this 
program, and I think we should figure out a way to evaluate the 
program, to create as best as you can a control group. It is 
hard to do that, you would admit, in a program in which you 
would have to deny scholarships to some people in order to 
create that control group, correct?
    Mr. Lubienski. Yes. It is similar to medical trials, where 
there is a group of people that are in the experiment and a 
group that is not and they do not necessarily know which group 
there are in. Here, in this case, they do know if they are 
accepted to the voucher program or not.
    I would say that these effects, these types of programs in 
medical trials, when there is evidence that they are having a 
substantial impact, it is considered unethical to deny 
treatment to the control group.
    Senator Booker. Right.
    Mr. Lubienski. That is not the case here. We have not 
reached anywhere near that level of evidence. Most of the 
evidence suggests that there is not an impact.
    Senator Booker. But, would you agree with me that if the 
scholarship amount was more and kids could go to higher 
performing schools--schools with long track records of success 
that are not accepting our scholarship kids right now, that it 
is most likely that those kids would do better, right?
    Mr. Lubienski. The best predictor, or one of the best--as 
was said earlier, family--parents----
    Senator Booker. The parental----
    Mr. Lubienski [continuing]. Interest is very important, but 
so is the, again, the peer group or the social characteristics 
of the school that the child is learning in. That is an 
excellent predictor of it, regardless of whether it is a 
public, charter, or private school.
    Senator Booker. Right.
    Mr. Lubienski. So, yes. I think taking kids and giving them 
access to these types of schools would be beneficial. But, 
again, I would caution you to think about that is removing--I 
mean, you are clustering higher achieving, motivated peers in 
some places and that you are taking them from elsewhere. So, 
that is going to have, also, negative impacts.
    Senator Booker. But, that is not persuasive to me because 
we have created a society that allows segregation--New Jersey, 
for African-Americans, the fifth most segregated State in the 
Nation, and a lot of that is a family led battle. My parents 
were looking for quality public schools, so we had to get the 
Fair Housing Council, go through court proceedings just to 
battle into a neighborhood so I could go to the schools that I 
went to. And, so, that is not persuasive to me. In other words, 
we are going to punish those children who might have the 
wherewithal or parents when we do not do that for others. I am 
sorry. You can respond to that, if you want.
    Mr. Lubienski. I did not mean to say that we are punishing 
those children. I am saying we are, in fact, punishing children 
who are left behind whose parents do not care enough to make 
the choice. When they are concentrated in schools where all the 
affluent and more motivated peers have left, those are called 
sink schools oftentimes, and I have--those children are 
penalized.
    Senator Booker. Right, but that does not mean that policy 
within those schools--I have seen so-called sink schools in my 
own city that, because of changes within those public schools, 
do extraordinarily well. There are turnaround schools that make 
incredible gains. So, that is not an excuse to just give up on 
those children.
    Mr. Lubienski. I would not at all advocate we should give 
up on them. But, I would suggest that most of the turnaround 
cases we have seen, there tends to be a socioeconomic 
explanation for that. For example, people have pointed to some 
high-poverty schools that have actually succeeded and beat the 
odds. Closer inspection turns out that they are near a campus 
where many of the parents are graduate students. They are low-
income at that point, but the parents are really focused on 
education. So, those are things that----
    Senator Booker. So, if Kevin's work was able to address the 
accreditation issues, which he is addressing, so we have more 
transparency into what is going on in those schools, if Kevin's 
work, thanks to increased scholarship amounts, helps kids get 
more diversity of schools where they could actually be in 
better schools, if Kevin's work on the accountability measures 
within those schools also helps to improve--really, it sounds 
to me that your biggest concern about this program, correct me 
if I am wrong, is just the fact that when you, like a charter 
school might and like a so-called voucher school might, taking 
one of those kids out hurts--your argument is it is hurting the 
District school, not because it is taking money away, because 
in this case it is not, it is new money, but you are saying it 
is hurting the school because of the peer effect. That would be 
your biggest argument against the program?
    Mr. Lubienski. I am not arguing against the program. I am 
saying that is something that policymakers need to consider, 
that there are often costs involved, and this is, again, from 
the Organisation for Economic Co-Operation and Development 
(OECD) report. They talk about benefits and costs being 
unevenly distributed. As more affluent parents leave these 
schools, that does have a negative implication for the peer 
effects for the schools and for the students who are left 
behind.
    Senator Booker. Right, and have you taken time to study 
what is happening in Newark at all?
    Mr. Lubienski. I am aware of Newark and I am aware of the 
CREDO studies, as well, and there are certainly success stories 
like Newark around there. There is a new book out about Newark 
which I have not had the chance to read yet. But, I have gone 
around the country. I talk with different policymakers, and 
they are quite happy to talk about, I am from this city and we 
are doing well in terms of charter schools.
    But, overall, the CREDO studies from earlier suggested 
about, I think it was 17 percent of the charter schools were 
performing above statistically--or demographically comparable 
public schools, and there are reasons to think that that number 
is actually inflated. Twice as many were actually performing at 
a level beneath demographically comparable public schools, and 
the rest were a wash. So, for every Newark, there is an Ohio or 
a Michigan where charter schools are pretty bad.
    Senator Booker. Right. And I guess my point, the last point 
I will make, because my time has expired, is that there are 
enough examples of what is working, and the goal here is to 
learn from that and constantly work to make things better for 
our public schools. And to me, that is what is happening in 
Washington, DC. They have made mistakes in the program in the 
past and they are working to try to continue to make it better.
    And, so, I am grateful for both sides of the aisle, Mr. 
Chairman, working to again deal with some of the mistakes that 
were made, control for some of the bad things, in my opinion, 
that might have happened in the past, really, and chart a 
course forward that works not just for the kids fortunate 
enough to get a scholarship, but really to focus on all three 
sectors within Washington, DC. and to see them improve.
    Mr. Chairman, thank you.
    Chairman Johnson. Thank you, Senator Booker. We have just 
got a couple minutes left on the vote.
    I do ask unanimous consent that a written statement from 
Dr. Patrick Wolf, distinguished Professor of Education Policy 
at the University of Arkansas,\1\  and a written statement from 
the Government Accountability Office, be included in the 
record.\2\ Without objection, so ordered.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Patrick Wolf appears in the 
Appendix on page 101.
    \2\ The prepared statement from the Government Accountability 
Office appears in the Appendix on page 82.
---------------------------------------------------------------------------
    Chairman Johnson. We really do want to thank all of our 
witnesses. We obviously wish you all the best, but Linda, you 
are an extraordinary young woman. We wish you all the best. You 
are going to take advantage of this opportunity and we wish you 
well.
    With that, the hearing record will remain open for the next 
15 days, until November 19, 5 p.m., for the submission of 
statements and questions for the record.
    Again, thank you all for your time, for your thoughtful 
testimony, and your thoughtful answers to our questions.
    This hearing is adjourned.
    [Whereupon, at 12:16 p.m., the Committee was adjourned.]




                            A P P E N D I X

                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
